00064-FDIC-cover final.qxd   12/6/06   5:11 PM   Page 2




                                                            OFFICE OF INSPECTOR GENERAL




                                                           Semiannual Report to the

                                                          CONGRESS
                                                            April 1, 2006 – September 30, 2006




                                                          INCLUDING THE OFFICE OF INSPECTOR GENERAL'S
                                                             PERFORMANCE REPORT FOR FISCAL YEAR 2006
00064-FDIC-cover final.qxd   12/6/06    5:11 PM   Page 3




                                          The Federal Deposit Insurance Corporation
                                        (FDIC) is an independent agency created by the
                                        Congress to maintain stability and confidence in
                                        the nation’s banking system by insuring deposits,
                                        examining and supervising financial institutions,
                                          and managing receiverships. Approximately
                                       4,560 individuals within seven specialized operat-
                                       ing divisions and other offices carry out the FDIC
                                         mission throughout the country. According to
                                           most current FDIC data, the FDIC insured
                                        $6.447 trillion in deposits for 8,790 institutions,
                                       of which the FDIC supervised 5,241. The Corpo-
                                         ration held insurance funds of $49.6 billion to
                                                ensure depositors are safeguarded.
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page i




                                                          OFFICE OF INSPECTOR GENERAL




                                                         Semiannual Report to the

                                                        CONGRESS
                                                          April 1, 2006 – September 30, 2006




                                                        INCLUDING THE OFFICE OF INSPECTOR GENERAL'S
                                                           PERFORMANCE REPORT FOR FISCAL YEAR 2006
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page ii
Inspector General’s
Statement




I am pleased to provide this semiannual        mation security program in accordance
report on the activities and accomplish-       with the Federal Information Security
ments of the Office of Inspector               Management Act of 2002 and highlighted
General (OIG) from April 1, 2006 to            steps that the Corporation could take to
September 30, 2006. The audits, evalua-        enhance the security of its information
tions, investigations, and other activities    resources.
highlighted in this report illustrate the
FDIC OIG’s on-going commitment to              Of special note on the investigations
promoting efficiency, effectiveness, and       front, among other successful cases, we
integrity and helping the Corporation          report that as a result of OIG investigative
successfully achieve its honorable mission     work in partnership with the U.S. Attor-
of maintaining stability and public confi-     ney’s Office for the Southern District of
dence in the nation’s banking system.          Florida, in July 2006, the former chair-
Our Fiscal Year 2006 Performance Report        man of the board and chief executive offi-
is also included as part of this semiannual    cer of Hamilton Bank was sentenced to
report to show our progress in meeting         30 years of incarceration and 36 months
annual performance goals.                      of supervised release. He had earlier been
                                               convicted on all 16 charges of making
Over the past 6 months, our office             false filings to the Securities and Exchange
issued 15 audit and evaluation reports.        Commission and to bank examiners,
We closed 21 investigations, with over         making false statements, wire fraud, bank
$27 million in total fines, restitution,       fraud, securities fraud, obstruction of
and potential monetary recoveries. As          a bank examination, and conspiracy.
discussed in more detail in this report, our   Most recently, he, along with two other
audit and evaluation work, in particular,      convicted Hamilton Bank officers, was
reviewed and made recommendations              ordered to pay $32 million in total
related to: the FDIC reserve ratio and         restitution for bank and securities fraud,
assessment determinations, industrial loan     $16 million of which is payable to the
companies, predatory lending, protection       FDIC.
of personally identifiable information,
consumer rights issues, FDIC contract          We intend to continue to address issues of
administration, and corporate emergency        such significance to the Corporation, the
response plans. We also issued a compre-       Congress, the financial services industry,
hensive report on the Corporation’s infor-     and the American people. We have just
                                                                                              iii
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page iv




            iv                                    SEMIANNUAL REPORT TO THE CONGRESS


                      issued our Fiscal Year 2007 Business Plan,          of the Audit Committee, Martin Gruenberg,
                      outlining a series of audits, evaluations,          during my first months on the job. As my
                      investigative activities, internal operational      office carries out its independent oversight
                      improvement projects, and other initiatives         role, I anticipate continuing a cooperative
                      that we will undertake in the coming year.          and productive working relationship with
                      Included in that plan is a newly articulated        them and others at the FDIC.
                      vision statement that I firmly believe in and
                      that will serve to inspire all OIG staff in their   In closing, I express my gratitude to Patricia
                      daily work: The OIG is a quality-focused            M. Black, Deputy Inspector General, for her
                      FDIC team that promotes excellence and trust        leadership as Acting Inspector General prior
                      in service to the Corporation and the public        to my appointment. I also thank the OIG
                      interest.                                           Executive team and staff for their helpful
                                                                          assistance as I began my tenure as Inspector
                      I was sworn in as Inspector General of the          General. I look forward to working with the
                      FDIC on July 5, 2006. I have greatly appre-         Congress, the Corporation, and other mem-
                      ciated the support of FDIC Chairman Sheila          bers of the Inspector General community as
                      Bair and the FDIC Vice Chairman and Chair           we address the challenges ahead.




                                                                           Jon T. Rymer
                                                                           Inspector General
0064-FDIC_FDIC text .qxd      12/6/06      5:07 PM       Page v




               Table of Contents




              Inspector General’s Statement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .iii
              Highlights and Outcomes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


              STRATEGIC GOAL AREAS

                     Supervision: Assist the FDIC to Ensure the Nation’s
                                  Banks Operate Safely and Soundly . . . . . . . . . . . . . . . . . . . . . . . . . .5

                     Insurance: Help the FDIC Maintain the Viability of the
                                Insurance Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .15

                     Consumer Protection: Assist the FDIC to Protect Consumer
                                          Rights and Ensure Community Reinvestment . . . . . . . . .19

                     Receivership Management: Help Ensure that the FDIC is Ready to
                                              Resolve Failed Banks and Effectively
                                              Manages Receiverships . . . . . . . . . . . . . . . . . . . . . .27

                     Resources Management: Promote Sound Governance and Effective
                                           Stewardship of Financial, Human, Information
                                           Technology, and Procurement Resources . . . . . . . . . . .29

                     OIG Internal Processes: Continuously Enhance the OIG’s Business
                                             and Management Processes . . . . . . . . . . . . . . . . . . . . .35

              Cumulative Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .39

              Fiscal Year 2006 Performance Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .41

              Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .47

              Information Required by the Inspector General Act of 1978, as amended . . . . . . . . . . .49

              Abbreviations and Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .57

                                                                                                                                           v
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page vi
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 1




               Highlights and Outcomes




              The OIG’s 2006 Business Plan contains five strategic goals that are closely linked to the
              FDIC’s mission, programs, and activities, and one that focuses on the OIG’s internal
              business and management processes. These highlights show our progress in meeting
              these goals during the reporting period. A more in-depth discussion of OIG audits,
              evaluations, investigations, and other activities in pursuit of these goals follows.


              S T R AT E G I C G O A L 1
              SUPERVISION: Assist the FDIC to Ensure the Nation’s Banks
                           Operate Safely and Soundly

              Achieving this goal is largely dependent on investigative success in combating financial
              institution fraud, and we made excellent progress in this area. As a result of coopera-
              tive efforts with Assistant U.S. Attorneys from around the country, numerous individu-
              als were prosecuted for financial institution fraud during the reporting period. The
              former chairman of the board and chief executive officer of Hamilton Bank was sen-
              tenced to 30 years of incarceration and 36 months of supervised release. He had earlier
              been convicted on all 16 charges of making false filings to the Securities and Exchange
              Commission and to bank examiners, making false statements, wire fraud, bank fraud,
              securities fraud, obstruction of a bank examination, and conspiracy. The former
              Hamilton Bank president and the former chief financial officer also received stiff sen-
              tences for their roles in the fraud. In another case, the former president of the First
              National Bank of Blanchardville, Wisconsin, was sentenced to 108 months’ incarcera-
              tion to be followed by 5 years of supervised release and was ordered to pay $13.4 mil-
              lion in restitution to the FDIC. We were also successful in obtaining three guilty pleas
              from businessmen involved in an $8 million real estate land flip scheme and another
              guilty plea from a mortgage broker for mortgage fraud. Multiple other guilty pleas,
              indictments, and sentencings of former bank officers, directors, and bank customers
              contributed to successful OIG results in this goal area. (See pages 5-14.)




                                                                                                          1
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 2




            2                                     SEMIANNUAL REPORT TO THE CONGRESS


                      S T R AT E G I C G O A L 2
                      INSURANCE: Help the FDIC Maintain the Viability
                                 of the Insurance Funds
                      Two major audit assignments focused on helping to maintain the viability of the insurance
                      funds. We issued a report on the FDIC’s reserve ratio and assessments determination process,
                      recommending that the Corporation periodically validate key assumptions, estimates, or
                      other components that factor into the calculation of the reserve ratio. Importantly, in con-
                      nection with corporate governance practices, we recommended improved communication of
                      information relevant to assessment determinations and other corporate matters and activities
                      to the FDIC Board of Directors. In another report on the industrial loan company insurance
                      application process, we made six recommendations to strengthen that process and subsequent
                      monitoring of conditions imposed on industrial loan companies and business processes.
                      (See pages 15-18.)


                      S T R AT E G I C G O A L 3
                      CONSUMER PROTECTION: Assist the FDIC to Protect Consumer Rights
                                           and Ensure Community Reinvestment
                      Audits and investigations contributed to the FDIC’s protection of consumers in multiple
                      ways. We issued a report on the challenges faced by the FDIC and the efforts taken to iden-
                      tify, assess, and address risks posed to FDIC institutions and consumers from predatory
                      lending practices. We issued reports and made several recommendations to ensure better
                      protection of sensitive customer information. One report related to the risks of financial
                      institutions’ increased outsourcing of software development and maintenance, data process-
                      ing, and other information technology services to technology service providers and the
                      FDIC’s related examination coverage. Another audit examined the Division of Resolutions
                      and Receiverships’ protection of bank employee and customer personally identifiable infor-
                      mation. From a compliance standpoint, we assessed examiner use of Home Mortgage Disclo-
                      sure Act data to identify and assess instances of potential discrimination in FDIC-supervised
                      institutions and recommended strengthening examiner guidance. We also identified needed
                      improvements in the FDIC’s process for addressing the violations and deficiencies reported in
                      compliance examinations. To help protect consumers, our Electronic Crimes Unit responded
                      to phishing schemes where the FDIC and OIG Web sites were misused to entice consumers
                      to divulge personal information. We successfully shut down several Web sites used for such
                      purposes during the period. (See pages 19-26.)


                      S T R AT E G I C G O A L 4
                      RECEIVERSHIP MANAGEMENT: Help Ensure that the FDIC is Ready to
                                               Resolve Failed Banks and Effectively
                                               Manages Receiverships
                      We continued to pursue concealment of assets investigations related to the more than
                      $1.7 billion in criminal restitution that the FDIC is owed. We continued coordination
                      with the Division of Resolutions and Receiverships, the Legal Division, and the Depart-
                      ment of Justice on such cases. We also began to strategize approaches for OIG work related
                      to potential large bank failures. (See pages 27-28.)
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 3




                                     SEMIANNUAL REPORT TO THE CONGRESS                                       3


          S T R AT E G I C G O A L 5
          RESOURCES MANAGEMENT: Promote Sound Governance and Effective
                                Stewardship of Financial, Human, IT, and
                                Procurement Resources
          We issued a number of audit and evaluation reports resulting in positive benefits to the
          FDIC. Our Federal Information Security Management Act-related work reported that the FDIC
          had made significant progress over the last several years but continued attention was needed in
          such areas as enterprise architecture, configuration management, access controls, and audit and
          accountability controls. Other reports addressed strengthening the Corporation’s emergency
          response policy and the maintenance, communication, and content of emergency response plans;
          and enhancing controls over the disposal of sensitive FDIC information. We also made a series
          of recommendations to help ensure an efficient, effective, and accountable FDIC contract
          administration process and better position the Corporation to control costs, meet scheduled
          timeframes, and ensure contractor performance. (See pages 29-34.)


          S T R AT E G I C G O A L 6
          OIG INTERNAL PROCESSES: Continuously Enhance the OIG’s Business and
                                  Management Processes
          We continued to focus on strategically planning OIG work, resulting in formulating our Fis-
          cal Year 2007 Business Plan, which combines our strategic plan and performance plan and
          includes our Audit and Evaluation Plan, infrastructure improvement projects, and other ini-
          tiatives. These plans unify, guide, and integrate OIG activities in pursuit of our six strategic
          goals. We promoted effective stakeholder relationships and information-sharing by way of
          OIG Executive meetings with FDIC Executives; presentations at FDIC Audit Committee
          meetings; Congressional interaction; and coordination with financial regulatory OIGs, other
          members of the Inspector General community, and the Government Accountability Office.
          We reviewed and/or commented on six proposed corporate policies (e.g., protection of pri-
          vacy information, the FDIC’s software configuration management program, and enterprise
          risk management) and two draft legislative documents and regulations. We focused on con-
          tinuously enhancing the OIG’s business and management processes by strengthening the
          OIG’s human capital practices, taking steps to better ensure the quality of OIG activities and
          products, and investing in cost-effective and secure information technology to improve per-
          formance and productivity. (See pages 35-38.)
0064-FDIC_FDIC text .qxd    12/6/06     5:07 PM   Page 4




            4                                        SEMIANNUAL REPORT TO THE CONGRESS



                                                     SIGNIFICANT OUTCOMES
                                                            (April 2006 – September 2006)


                           Audit and Evaluation Reports Issued                                              15

                           Nonmonetary Recommendations                                                      48

                           Investigations Opened                                                            29

                           Investigations Closed                                                            21

                           OIG Subpoenas Issued                                                             18



                           JUDICIAL ACTIONS:

                                Indictments/Informations                                                    11

                                Convictions                                                                 11

                           Arrests                                                                          20



                           OIG INVESTIGATIONS RESULTED IN:

                                Fines of                                                               $15,500

                                Restitution of                                                      $24,338,740

                                Other Monetary Recoveries                                            $2,842,678

                                Total                                                               $27,196,918

                           Cases Referred to the Department of Justice (U.S. Attorney)                      19

                           Cases Referred to FDIC Management                                                 1

                           OIG Cases Conducted Jointly with Other Agencies                                  90

                           Hotline Allegations Referred                                                     59

                           Proposed Regulations and Legislation Reviewed                                     2

                           Proposed FDIC Policies Reviewed                                                   6
                           Responses to Requests and Appeals under the Freedom of Information Act            6
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 5




               S T R AT E G I C G O A L 1
               Supervision
               Assist the FDIC to Ensure the
               Nation’s Banks Operate Safely
               and Soundly




              Bank supervision is at the core of the FDIC’s efforts to ensure stability and public con-
              fidence in the nation’s financial system. The FDIC is the primary federal regulator for
              5,241 FDIC-insured, state-chartered institutions that are not members of the Federal
              Reserve System (generally referred to as “state non-member” institutions). The Depart-
              ment of the Treasury (the Office of the Comptroller of the Currency and the Office of
              Thrift Supervision) or the Federal Reserve Board supervise other banks or thrifts,
              depending on the institution’s charter.
              Key to effective supervision is a strong examination program. The FDIC performs
              safety and soundness, information technology (IT), trust, and other types of specialty
              examinations of FDIC-supervised insured depository institutions. The majority of
              the states participate with the FDIC in an examination program under which certain
              examinations are performed on an alternating basis by the state regulators and the
              FDIC. The Corporation also has back-up examination authority for national banks,
              state-chartered banks that are members of the Federal Reserve System, and savings asso-
              ciations, all in the interest of protecting the deposit insurance fund. The examinations
              are conducted to assess an institution’s overall financial condition, management prac-
              tices and policies, and compliance with applicable laws and regulations.
              The banking industry has been marked by consolidation, the impact of globalization,
              and the development of increasingly complex investment strategies available to banks.
              This has led bank regulators, both domestically and internationally, to devise new stan-
              dards for bank capital requirements commonly referred to as Basel IA and Basel II.
              The FDIC has been engaged with other bank regulators in developing new standards
              and assessing the potential impact on bank safety and soundness.
              In addition, the FDIC is faced with developing and implementing programs to mini-
              mize the extent to which the institutions it supervises are involved in or victims of
              financial crimes and other abuse. Bank governance practices are important safeguards
              against fraud and other abuses, and the FDIC has issued guidance to banks about gov-
              ernance expectations, including adherence to requirements in the Sarbanes-Oxley Act
              for publicly traded financial institutions. In its role as supervisor, the FDIC also ana-
              lyzes data security threats, occurrences of bank security breaches, and incidents of
              electronic crime that involve financial institutions. As part of safety and soundness
              examinations, the FDIC also ensures that the institutions comply with regulatory
              reporting requirements of the Bank Secrecy Act.                                             5
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 6




            6                                     SEMIANNUAL REPORT TO THE CONGRESS


                      As more and more laws are passed, and new regulations are adopted to implement those laws,
                      policy makers and regulators have worked to ensure that the intended benefits justify the con-
                      siderable costs. Pursuant to the Economic Growth and Regulatory Reduction Act of 1996,
                      the FDIC and other bank regulators have been reviewing regulations in order to identify out-
                      dated or otherwise unnecessary regulatory requirements imposed on insured depository insti-
                      tutions. Of note as we were going to press with this semiannual report, the President had
                      signed S.2856, the Financial Services Regulatory Relief Act. Among other provisions, this act
                      includes an increase from $250 million to $500 million on the asset size for eligibility for an
                      18-month examination cycle; permission for banks, thrifts, and credit unions to use new
                      lending and investment authority; and other changes allowing financial institutions to
                      improve the efficiency of their operations.
                      The OIG’s role under this strategic goal is conducting audits and evaluations that review the
                      effectiveness of various FDIC programs aimed at providing continued stability to the nation’s
                      banks. The OIG also conducts investigations of fraud at FDIC-supervised institutions; fraud
                      by bank officers, directors, or other insiders; obstruction of bank examinations; fraud leading
                      to the failure of an institution; fraud impacting multiple institutions; and fraud involving
                      monetary losses that could significantly impact the institution.
                      To assist the FDIC to ensure the nation’s banks operate safely and soundly, the OIG’s 2006
                      performance goals were as follows:
                            ■   Evaluate the effectiveness of the FDIC’s supervision program, and
                            ■   Evaluate and assist FDIC efforts to detect and prevent bank secrecy violations, fraud,
                                and financial crimes in FDIC-insured institutions.


                      OIG Work in Support of Goal 1
                      The OIG’s Office of Investigations is a driving force in combating fraud that occurs at or
                      impacts financial institutions. The perpetrators of such crimes can be those very individuals
                      entrusted with governance responsibilities at the institutions–directors and bank officers. In
                      other cases, individuals providing professional services to the banks, others working inside the
                      bank, and customers themselves are principals in fraudulent schemes. The intentional denial
                      of accurate information to bank examiners undermines the integrity of the examination
                      process. The OIG defends the vitality of the examination process by investigating allegations
                      of criminal obstruction of bank examinations, often associated with fraudulent activities, and
                      by working with U.S. Attorneys’ Offices to bring these cases to justice.
                      The following cases from the reporting period are illustrative of the OIG’s success in pursuing
                      Strategic Goal 1 during the reporting period.

                      Sentencing of Former Hamilton Bank Officers for $20 Million Bank Fraud
                      On July 26, 2006, the former chairman of the board and chief executive officer, Hamilton Bank
                      (Hamilton), and Hamilton Bancorp, Hamilton’s bank holding company, Miami, Florida, was
                      sentenced in the U.S. District Court for the Southern District of Florida to 30 years’ incarcera-
                      tion and 36 months of supervised release. The defendant was immediately remanded to the cus-
                      tody of the Attorney General.
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 7




                                     SEMIANNUAL REPORT TO THE CONGRESS                                             7


          After a month-long trial, the former chairman of the board was convicted on all 16 charges of
          making false filings to the Securities and Exchange Commission (SEC) and to bank examin-
          ers, making false statements, wire fraud, bank fraud, securities fraud, obstruction of a bank
          examination, and conspiracy.
          On July 27, 2006, sentencing hearings were held for the former Hamilton president, and the
          former Hamilton chief financial officer, both of whom pleaded guilty before trial and cooper-
          ated with the government during the investigation.
          The former president was sentenced to 28 months’ incarceration, 24 months of supervised
          release, and was fined $10,000. He previously pleaded guilty to two counts of securities
          fraud. The former chief financial officer was sentenced to 28 months’ incarceration to be fol-
          lowed by 24 months of supervised release as a result of his earlier guilty plea to one count of
          securities fraud and one count of obstruction of a formal agency proceeding. Both men were
          ordered to surrender to the United States Marshal’s Service on October 27, 2006.
          The defendants participated in a fraudulent scheme whereby they falsely inflated the results
          of operations, earnings, and financial condition of Hamilton Bancorp in the Securities and
          Exchange Commission filings; obstructed the Office of the Comptroller of the Currency’s
          (OCC) examination of Hamilton Bank; and lied to the investing public, the bank and securi-
          ties regulators, and their accountants regarding the true financial health of Hamilton Bancorp
          and Hamilton Bank. In 1998 and 1999, the three defendants engaged in swap transactions
          (or “adjusted price trades”) to hide Hamilton Bank’s losses on certain loans, including more
          than $22 million in losses in 1998, and falsely accounted for the transactions to make it
          appear that no losses had been incurred. While the defendants falsely reported the nature
          of the swap transactions to the investing public and the regulators, the indictment cited
          recorded conversations in which the defendants openly discussed the transactions as swaps.
          During 1998, Hamilton Bancorp had a market capitalization of more than $300 million.
          Hamilton Bank was South Florida’s highest profile trade finance bank before it ran into trou-
          ble with its regulator, the OCC, over the questionable loan swaps that allowed the bank to
          hide $22 million in losses in 1998. The OCC closed the bank in January 2002 and the
          FDIC took on liquidation responsibilities as receiver.
                                                 Investigation conducted by the FDIC OIG; prosecuted by the
                                                    U.S. Attorney’s Office for the Southern District of Florida.

          Former President of the First National Bank of Blanchardville Sentenced to
          9 Years’ Incarceration and Ordered to Pay $13 Million in Restitution to the
          FDIC
          On July 21, 2006, the former president of the First National Bank of Blanchardville (FNBB),
          Blanchardville, Wisconsin, was sentenced in U.S. District Court for the Western District of
          Wisconsin. The defendant was sentenced to 108 months’ incarceration, to be followed by
          5 years of supervised release. In addition, the defendant was ordered to pay $13.4 million in
          restitution to the FDIC. The defendant earlier pleaded guilty to one count of bank fraud.
          On May 9, 2003, FNBB was declared insolvent by the OCC and the FDIC was appointed
          receiver for the failed institution.
          As part of his earlier plea statement to the court, the defendant admitted that he devised a
          scheme to defraud FNBB of his honest services that caused the bank to fail. Specifically, the
          scheme to defraud involved:
0064-FDIC_FDIC text .qxd   12/6/06     5:07 PM   Page 8




            8                                       SEMIANNUAL REPORT TO THE CONGRESS


                            ■   providing false information to the board of directors;
                            ■   substantially exceeding the bank’s lending limits;
                            ■   issuing unauthorized loans;
                            ■   filing false reports with regulators and causing bank records to be altered to mislead
                                federal auditors;
                            ■   soliciting $17 million worth of worthless checks that were deposited into a customer’s
                                account to reduce the overdraft status on the account and reduce delinquent loan
                                accounts;
                            ■   falsifying minutes of the board of directors meetings;
                            ■   placing false loan notes in loan files; and
                            ■   failing to follow banking regulations regarding the classifications of loans.
                                          Joint investigation by the FDIC OIG, the Federal Bureau of Investigation (FBI), and
                                         the Internal Revenue Service Criminal Investigation Division, based on a referral from
                                     the Division of Resolutions and Receiverships; prosecuted by the U.S. Attorney’s Office for
                                                                                             the Western District of Wisconsin.

                      Former President of Canton State Bank and His Wife Indicted on
                      26 Counts of Bank Fraud
                      On June 8, 2006, in the Eastern District of Missouri, the former president of Canton State
                      Bank and his wife were indicted by a federal grand jury on 26 felony counts of conspiracy to
                      make false statements to FDIC-insured institutions and the U.S. Department of Agriculture
                      Farm Service Agency (FSA), false statements, money laundering, and bank fraud.
                      The indictment charged that between October 2001 and August 2004, the defendants under-
                      stated their liabilities on loan applications with Canton State Bank, The Paris National Bank,
                      Perry State Bank, Bank of Monticello, and the FSA. In addition, the defendants represented
                      to Perry State Bank and the FSA that the livestock and farm equipment that they pledged as
                      collateral security for loans was free and clear of all other liens and encumbrances, when they
                      had previously pledged the same collateral for other loans.
                      The indictment also charged that between August 2002 and May 2003, the former president
                      allegedly made numerous loans to a bank customer, who then wrote checks to return a sub-
                      stantial portion of the loan proceeds to the former president. The indictment further alleged
                      that, in some cases, the payee on those checks was listed as the bank president’s wife’s minor
                      child in order to conceal the payments to him.
                                Joint investigation by the FDIC OIG, the FBI, and the U.S. Department of Agriculture OIG,
                                        based on a referral from the Division of Supervision and Consumer Protection (DSC);
                                                  prosecuted by the U.S. Attorney’s Office for the Eastern District of Missouri.

                      Former COO of Universal Federal Savings Bank Sentenced
                      On September 19, 2006, in the U.S. District Court for the Northern District of Illinois, Uni-
                      versal Federal Savings Bank’s (Universal) former chief operations officer (COO) was sen-
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 9




                                     SEMIANNUAL REPORT TO THE CONGRESS                                                    9


          tenced to 38 months of incarceration, to be followed by 3 years of supervised release and
          600 hours of community service. She was also ordered to pay restitution in the amount of
          $1,313,082 to the FDIC. A Universal customer earlier pleaded guilty to one count of wire
          fraud affecting a financial institution and the former COO’s brother was sentenced to 2 years
          of supervised release and 200 hours of community service. All of Universal’s losses occurred
          prior to his activity; consequently, no restitution was ordered. The former COO’s sentence,
          the bank customer’s guilty plea, and the COO’s brother’s sentence were the result of an
          indictment filed in January 2005 concerning the activities surrounding the failure of Univer-
          sal on June 27, 2002.
          As previously reported, the indictment alleged that a Universal customer conspired with Uni-
          versal’s COO to misapply the financial institution’s funds and to make a false entry in a book,
          report, or statement of or to Universal.
          The bank customer wrote insufficient funds checks and deposited those checks in Universal’s
          correspondent account at American National Bank (ANB). After receiving immediate credit
          and availability of those funds, he withdrew some or all of the funds, and then covered
          the previous insufficient funds checks plus the withdrawn funds by depositing even larger
          amounts of insufficient funds checks. This cycle continued almost daily for more than
          6 months. During the conspiracy, the bank customer made approximately 138 deposits
          at ANB that included insufficient funds checks totaling more than $200 million.
          Universal’s chairman of the board of directors requested a review of the bank customer’s
          account activity and directed the former COO to provide copies of the fronts and backs of
          checks. In order to conceal the check-kiting scheme, the former COO and the bank cus-
          tomer agreed that the bank customer would alter the checks. The bank customer and the for-
          mer COO’s brother, a certified public accountant and authorized signer on the account with
          the customer, falsified the backs of the account checks to conceal that they were deposited
          into Universal’s correspondent account at ANB. On or about June 20, 2002, the former
          COO knowingly provided the falsified check copies to the chairman in furtherance of the
          conspiracy. About 1 week later, the check-kiting scheme was discovered and stopped. The
          scheme and conspiracy caused a loss in excess of $10 million, and Universal was forced to
          cease operations.
                                               Joint investigation by the FDIC OIG and the FBI; prosecuted by the
                                                                 U.S. Attorney’s Office, Northern District of Illinois.

          Former Bank Director of Central Bank Convicted
          of Misapplication of Bank Funds
          On May 8, 2006, the former executive vice president and chief lending officer of Central
          Bank, Houston, Texas, pleaded guilty in the U.S. District Court for the Southern District of
          Texas, to 11 counts of misapplication of bank funds by a bank officer. The defendant’s guilty
          plea is the result of an information filed on April 14, 2006.
          The defendant admitted that between May 2001 and September 2003, while employed as an
          officer and director of Central Bank, an FDIC-insured institution, he misapplied and con-
          verted to his own use proceeds of loans from Central Bank to various borrowers. The evi-
          dence proved, and the defendant conceded, that he had created an assumed business name for
          himself, CBMB & Associates. He placed false invoices for “fees” in Central Bank’s loan files,
          authorized the disbursement of loan proceeds to CBMB & Associates, and negotiated and
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 10




            10                                    SEMIANNUAL REPORT TO THE CONGRESS


                      deposited into bank accounts on which he was the sole signatory the checks representing
                      these “fees,” thereby misapplying and converting the bank’s funds to his personal benefit.
                      Each of the 11 counts of the criminal information accused the defendant of embezzling loan
                      proceeds in sums ranging from as little as $3,390 to as much as $72,000.
                      As part of the defendant’s plea agreement, he entered into and executed stipulation to an
                      action under 8(e) of the Federal Deposit Insurance Act, which provides for a lifetime ban
                      from banking.
                                 Joint investigation by the FDIC OIG and the FBI, based on a referral from the FDIC Legal
                                        Division; prosecuted by the U.S. Attorney’s Office for the Southern District of Texas.

                      Bank Vice President Sentenced to 41 Months’ Incarceration
                      On July 18, 2006, the former vice president of First Century Bank was sentenced in the East-
                      ern District of Tennessee to 41 months’ incarceration, followed by 60 months of supervised
                      release. She was also ordered to pay $600,000 in restitution to First Century Bank. The
                      defendant earlier pleaded guilty to a one-count information charging her with bank fraud.
                      The defendant originated over 100 fraudulent loans during her tenure with First Century
                      Bank, resulting in bank losses in excess of $600,000. She began falsifying loan records to
                      enable customers to obtain loans. As these loans became delinquent, the defendant made
                      unauthorized withdrawals from inactive customer accounts and originated new loans in the
                      name of customers without their knowledge. The proceeds of these unauthorized with-
                      drawals and fraudulent loans were then used to cover loan payments and to pay off existing
                      fraudulent loans.
                                 Joint investigation by the FDIC OIG and FBI, based on a referral from DSC; prosecuted by
                                                              the U.S. Attorney’s Office for the Eastern District of Tennessee.

                      Bank Customer Pleads Guilty to $18 Million Bank Fraud
                      On July 12, 2006, in the U.S. District Court for the Northern District of Illinois, a bank cus-
                      tomer pleaded guilty to a criminal information charging him with one count of bank fraud.
                      The defendant admitted to devising a scheme to divert $18 million of loan proceeds from
                      creditors.
                      According to the information, the defendant defrauded two financial institutions of loan pay-
                      ments owed by third-party borrowers. The defendant submitted falsified loan payment docu-
                      ments and financial reports to Lincoln State Bank, an FDIC-supervised institution, and
                      Ottawa Savings Bank, an Office of Thrift Supervision-supervised institution. Both financial
                      institutions were FDIC insured.
                      These diverted funds represented proceeds and payments against participation loan agree-
                      ments between third-party borrowers and 15 financial institutions. Commercial Loan
                      Corporation, Inc., Oak Brook, Illinois, a company controlled by the defendant, brokered
                      commercial loans between the affected borrowers and lenders. As part of this service, Com-
                      mercial Loan Corporation, Inc., provided collection and payment services for the borrowers.
                      The defendant’s scheme involved collecting and diverting loan payments owed to creditors,
                      and overselling the loan participation agreements to other financial institutions to obtain
                      funds in excess of the borrowers’ approved loans. These loan payments and excess funds were
                      then diverted, for the defendant’s personal benefit, into a manufacturing plant as capitaliza-
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM    Page 11




                                      SEMIANNUAL REPORT TO THE CONGRESS                                                 11


          tion loans. The defendant’s diverted funds were lost when the plant closed and these “loans”
          went into default.
                   Joint investigation by the FDIC OIG and the FBI, based on a referral from DSC; prosecuted
                             by the U.S. Attorney’s Office for the Northern District of Illinois, Eastern Division.

          Real Estate Frauds
          The increased reliance by both financial institution and non-financial institution lenders on
          third-party brokers has created opportunities for fraud. Some of the emerging mortgage
          fraud schemes include “property flipping.” Property flipping is best described as purchasing
          properties and artificially inflating their value through false appraisals. The artificially valued
          properties are then repurchased several times for a higher price by associates of the “flipper.”

          THREE MEN PLEAD GUILTY IN $8 MILLION REAL ESTATE “LAND FLIP” SCHEME
          During April 2006, three businessmen pleaded guilty in the U.S. District Court for the Cen-
          tral District of Illinois to all charges in an August 5, 2005, 11-count superseding indictment
          that charged them with bank fraud, mail fraud, money laundering, and wire fraud.
          The defendants admitted to engaging in a real estate “land flipping” scheme from 1999-2005
          to defraud real estate lenders, including Central Illinois Bank, Champaign, Illinois, an FDIC-
          insured institution, buyers, and sellers. The scheme involved more than 150 fraudulent real
          estate sales and financing transactions totaling more than $8 million in fraud against financial
          institutions.
          The superseding indictment alleged that the defendants used fraudulent appraisals to buy,
          sell, and finance properties at prices fraudulently inflated. Two of the defendants represented
          themselves as property managers who were in the business of buying, selling, and managing
          real estate, though neither were licensed real estate brokers or salespersons. The third defen-
          dant was a licensed real estate appraiser who allegedly performed numerous appraisals for the
          two defendants in which he falsely inflated the value of the real estate.
          To carry out the scheme, two of the defendants recruited buyers, typically of modest means
          with little or no experience in rental real estate investment. To entice the buyers, the two
          defendants allegedly made one or more false representations to them regarding prospective
          properties.
          The two businessmen allegedly made more than $3 million for their personal use and to pro-
          mote the scheme, while the real estate appraiser received fees of $350 to $450 per appraisal.
                    Joint investigation by the FDIC OIG, the U.S. Postal Inspection Service and the FBI; prose-
                                            cuted by the U.S. Attorney’s Office for the Central District of Illinois.

          MORTGAGE BROKER PLEADS GUILTY TO A MORTGAGE FRAUD SCHEME
          On September 25, 2006, a mortgage broker from Dallas, Texas, pleaded guilty in the U.S.
          District Court for the Northern District of Texas to an indictment charging him with one
          count of wire fraud and aiding and abetting. The defendant is scheduled to be sentenced
          on January 2, 2007.
          As previously reported, the defendant and two other business associates were charged in a
          14-count indictment in March 2006. The grand jury charged one of the defendants with one
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 12




            12                                    SEMIANNUAL REPORT TO THE CONGRESS


                      count of bank fraud, seven counts of wire fraud, and six counts of engaging in monetary
                      transactions derived from specified unlawful activity. A second defendant was charged with
                      one count of bank fraud and six counts of wire fraud. The third was charged with one count
                      of wire fraud. Each of the counts in the indictment also included the associated charge of
                      aiding and abetting. Following the indictment, arrest warrants were issued, and agents from
                      the FDIC OIG and the FBI arrested two of the defendants on March 9, 2006. The third
                      defendant self-surrendered on March 10, 2006.
                      The indictment alleged that the three associates devised a scheme to fraudulently obtain
                      21 mortgage loans totaling $3,220,550. The defendants used schemes commonly referred to
                      in the mortgage industry as property flips, markups and kickbacks, and HUD swaps to facili-
                      tate the mortgage fraud. One of the mortgage companies impacted by this fraud scheme was
                      Fremont Investment & Loan, an FDIC-supervised institution in Brea, California.
                      In each instance, one of the defendants convinced inexperienced real estate investors to stand
                      in as straw borrowers and purchase the properties for fraudulently inflated sales prices. A sec-
                      ond defendant, a loan officer, and the third, a mortgage broker, knowingly submitted false
                      documentation to the lenders to enable the straw borrowers to qualify for the mortgage loans.
                      Each of the straw borrowers received a financial inducement for participating in the fraud
                      scheme. Fraudulent real estate appraisals were also submitted to the lenders to support the
                      inflated sales prices of the properties.
                                                         Joint investigation by the FDIC OIG and the FBI; prosecuted by the
                                                                      U.S. Attorney’s Office for the Northern District of Texas.

                      Other Successful Investigative Outcomes
                      FORMER STATE BANK OF COKATO EXECUTIVES PLEAD GUILTY
                      In August 2006, two former bank executives from the State Bank of Cokato pleaded guilty in
                      the U.S. District Court for the District of Minnesota in connection with various loan fraud
                      schemes. The former president and director pleaded guilty to a criminal information charg-
                      ing him with one count of bank fraud and one count of making false entries in a Quarterly
                      Bank Report to the FDIC. The bank’s former executive vice president pleaded guilty to one
                      count of lying to a federal agent in connection with a Small Business Administration loan
                      for a bank customer.
                      If convicted, the former president and director of the bank faces a maximum potential
                      penalty of 30 years in federal prison and a $1 million fine on each of those two charges. The
                      former executive vice president faces a maximum potential penalty of 5 years in prison and a
                      $250,000 fine.
                                 Joint investigation by the FDIC OIG, the FBI, IRS - Criminal Investigation Division, based
                               on a referral from the Kansas City FDIC Legal Division and DSC Regional Office; prosecuted
                                                                  by the U.S. Attorney’s Office for the District of Minnesota.

                      FORMER BANK OFFICER SENTENCED FOR BANK FRAUD
                      On April 27, 2006, the former assistant vice president of Falcon International Bank,
                      Laredo, Texas, was sentenced in the U.S. District Court for the Southern District of Texas,
                      to 14 months of incarceration, to be followed by 60 months of supervised release. She was
                      also ordered to pay $106,768 in restitution; $50,000 of the restitution order is to be paid
                      to the bonding company with the remaining balance to be paid to the bank.
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 13




                                     SEMIANNUAL REPORT TO THE CONGRESS                                               13


          The defendant’s sentence resulted from her earlier guilty plea to a one-count information
          charging her with embezzlement by a bank officer. The defendant’s scheme resulted in
          approximately $106,768 in losses to the bank.
                  Joint investigation by the FDIC OIG and FBI, with assistance from the FDIC Legal Division;
                                      prosecuted by the U.S. Attorney’s Office for the Southern District of Texas.

          FORMER EXECUTIVE VICE PRESIDENT OF IOWA-NEBRASKA STATE BANK SENTENCED
          On August 1, 2006, the former executive vice president of Iowa-Nebraska State Bank, an
          FDIC-supervised bank, South Sioux City, Nebraska, was sentenced in the U.S. District Court
          for the Northern District of Iowa, to 5 months of incarceration, to be followed by 5 months
          of house arrest, and fined $2,500. In March 2006, the defendant was found guilty of making
          false entries in the bank’s records.
                                           Joint investigation by the FDIC OIG and the FBI; prosecuted by the
                                                        U.S. Attorney’s Office for the Northern District of Iowa.

          FORMER VICE PRESIDENT OF ALLIANCE BANK PLEADS GUILTY TO EMBEZZLEMENT
          On August 23, 2006, in the U.S. District Court for the District of Minnesota, the former
          vice president in Commercial Lending, Alliance Bank, New Ulm, Minnesota, pleaded guilty
          to one count of theft, embezzlement, and misapplication by a bank officer.
          During a routine examination of Alliance Bank in August 2005, bank examiners discovered
          irregularities involving dozens of cashier’s checks. They found evidence that the former vice
          president and other officers of Alliance Bank converted fees earned by the bank into cashier’s
          checks, diverted those funds to their individual bank accounts, and made false entries in the
          books and records of the bank.
          In accordance with her plea agreement, the former vice president agreed to assist the DOJ in
          its investigation of the other senior Alliance Bank officers, paid $37,900 in restitution to the
          bank, and stipulated to an action under 8(e) of the Federal Deposit Insurance Act, which pro-
          vides for a lifetime ban from banking.
                                                             Joint investigation by the FDIC OIG and the FBI,
                                               based upon a referral from the DSC Kansas City Regional Office;
                                          prosecuted by the U.S. Attorney’s Office for the District of Minnesota.

          FORMER BRANCH MANAGER OF HUDSON SAVINGS BANK CHARGED WITH EMBEZZLEMENT
          On June 8, 2006, in the U.S. District Court for the District of Massachusetts, the former
          branch manager of Hudson Savings Bank, Hudson, Massachusetts, was charged in an infor-
          mation with two counts of misapplication and embezzlement of funds from Hudson Savings
          Bank.
          According to the information, over a 5-year period, the defendant allegedly tampered with
          more than 60 customers’ accounts at the bank, performing or authorizing hundreds of credits
          and debits, and causing a loss to the bank of more than $650,000.
          The information alleged that the defendant withdrew funds from existing customers’ deposit
          accounts and from active or inactive home equity lines of credit. He also created false
          accounts from which he withdrew funds. The defendant allegedly avoided detection of his
          actions by repaying credit lines from other customers’ accounts, taking steps to prevent cus-
          tomers from receiving account statements for periods of time, creating false loan statements
0064-FDIC_FDIC text .qxd   12/6/06    5:07 PM   Page 14




            14                                      SEMIANNUAL REPORT TO THE CONGRESS


                      that were sent to customers, and changing the mailing addresses on loan accounts to
                      addresses controlled by the defendant. According to the information, when customers
                      became aware of unauthorized activity in their accounts, the defendant corrected the account
                      by depositing funds from other customers’ accounts, sent a letter to the customer reporting
                      that there had been an “error” in the account, and made a notation in the bank’s internal data
                      system that the account had been fixed and the customer notified.
                                           Joint investigation by the FDIC OIG, the FBI, and the Hudson Police Department,
                                               based on a referral from DSC; prosecuted by the Economic Crimes Unit for the
                                                                        U.S. Attorney’s Office for the District of Massachusetts.

                      BANK CUSTOMER SENTENCED FOR CONSPIRACY TO COMMIT BANK FRAUD
                      On April 24, 2006, a bank customer of the Bank of the Panhandle, Guymon, Oklahoma, and
                      Production Credit Association of Woodward, Oklahoma, now Farm Credit Western, was sen-
                      tenced in the U.S. District Court for the Western District of Oklahoma, to 60 months of
                      incarceration, 104 hours of community service, and ordered to pay $2,608,137 in restitution
                      ($2,361,245 payable to Production Credit Association and $246,891 to the Bank of the Pan-
                      handle). The defendant’s sentence was the result of his earlier guilty plea to an information
                      charging him with one count of conspiracy to commit bank fraud.
                                     Joint investigation by the FDIC OIG, U.S. Department of Agriculture OIG, and the FBI;
                                                prosecuted by the U.S. Attorney’s Office for the Western District of Oklahoma.

                      Ongoing Audit Work
                      An ongoing audit in the supervision area is determining whether the FDIC has established
                      and implemented adequate procedures for addressing IT security risks at FDIC-supervised
                      financial institutions that offer electronic banking products and services.
                      Another assignment is determining whether examiners assess the reliability of appraisals and
                      sufficiency of insurance coverage as part of the evaluation of an institution’s lending practices
                      and policies.
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 15




               S T R AT E G I C G O A L 2
               Insurance
               Help the FDIC Maintain the Viability
               of the Insurance Funds




              FDIC deposit insurance remains a central component of the federal government’s
              assurance to the public that it can be confident in the stability of the Nation’s banks
              and savings associations. Since its establishment in 1933, the FDIC has insured
              deposits up to the legally authorized threshold, which presently stands at $100,000 for
              individual accounts and $250,000 for certain retirement accounts. For almost two
              decades following bank crises in the late-1980s and early 1990s, the FDIC managed
              two deposit insurance funds–one for banks and one for savings and loans.
              Legislation passed by the Congress on February 1, 2006, merged separate insurance
              funds for banks and thrifts into a single Deposit Insurance Fund with about $49.6 bil-
              lion in reserve. This legislation also imposed some reforms on how the FDIC is to
              manage the fund in the future, including indexing for inflation, permitting the fund
              reserves to fluctuate inside a percentage range of estimated insured deposits, and
              administering credits, dividends, and risk-based assessments. The Corporation is work-
              ing to implement these reforms.
              As insurer, the FDIC must evaluate and effectively manage how changes in the econ-
              omy, the financial markets, and the banking system affect the adequacy and the viabil-
              ity of the deposit insurance fund. Financial instruments and transactions continue to
              become more complex, and the process of financial intermediation, even in smaller
              institutions, increasingly sophisticated. Further, the ongoing consolidation of the
              banking industry means that there are a few very large institutions that represent an
              increasingly significant share of the FDIC’s exposure. According to the Corporation,
              as of June 30, 2006, the ten largest FDIC-insured institutions accounted for 42 percent
              of deposits and 44 percent of the assets of all FDIC-insured institutions.
              The OIG has a responsibility to evaluate the FDIC’s programs and operations to ensure
              that the agency has adequate information to gauge the risks inherent as financial insti-
              tutions consolidate, enter into new business areas, and become more global.
              To help the FDIC maintain the viability of the insurance fund, the OIG’s 2006 per-
              formance goals were as follows:



                                                                                                         15
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 16




            16                                    SEMIANNUAL REPORT TO THE CONGRESS


                            ■   Evaluate corporate programs to identify and manage risks in the banking industry
                                that can cause losses to the fund, and
                            ■   Assess the management of the deposit insurance fund.


                      OIG Work in Support of Goal 2
                      The OIG’s Office of Audits issued two reports in the insurance area during the reporting
                      period, as discussed below:

                      Reserve Ratio and Assessment Determinations
                      We conducted an audit of the FDIC’s reserve ratio and assessment determinations processes
                      to determine whether: (1) the Division of Insurance and Research accurately determines the
                      funds’(the Bank Insurance Fund and the Savings Association Insurance Fund–now the DIF)
                      reserve ratios and (2) the Division of Finance has adequate controls in place to ensure that
                      the FDIC accurately calculates, collects, and processes assessments of financial institutions.
                      We concluded that the FDIC could improve internal controls over the reserve ratio and
                                                                                      assessment determination
                                                                                      processes. Although the
                                                                                      FDIC accurately calcu-
                                                                                      lated fund reserve ratios
                                                                                      and assessments due from
                                                                                      financial institutions, a
                                                                                      key underlying assump-
                                                                                      tion supporting the
                                                                                      reserve ratio calculations
                                                                                      became outdated and was
                                                                                      not representative of
                                                                                      actual transactions. We
                                                                                      also concluded that FDIC
                                                                                      could improve communi-
                                                                                      cation of information rele-
                                                                                      vant to assessment
                                                                                      determinations and other
                                                                                      corporate matters and
                                                                                      activities to the
                                                                                      FDIC Board of Directors.
                                                                                          We recommended that the
                                                                                          FDIC periodically validate
                                                                                          key assumptions, esti-
                                                                                          mates, or other compo-
                                                                                          nents that factor into the
                                                                                          calculation of the reserve
                                                                                          ratio; review and clarify
                                                                                          Board delegations of
                                                                                          authority related to the
                                                                                          assessments determination
                                                                                          process; and evaluate pro-
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 17




                                     SEMIANNUAL REPORT TO THE CONGRESS                                      17


          cedures and practices for keeping Board members fully informed of Corporation matters and
          activities.
          FDIC management concurred with our findings and recommendations and is taking respon-
          sive action. The FDIC planned to submit to the Board proposed revisions to policies, proce-
          dures, and delegations of authority by September 30, 2006.

          FDIC’s Industrial Loan Company Deposit Insurance Application Process
          Industrial Loan Companies (ILC) are FDIC-supervised, limited-charter depository institu-
          tions. ILCs may be owned by commercial firms, and these parent companies may not be sub-
          ject to consolidated supervision by a federal regulator. As of March 2006, there were 61 ILCs
          with total assets of $155 billion.
          The FDIC solely grants deposit insurance and evaluates whether an ILC application for
          deposit insurance meets statutory factors. After approving the application, the FDIC issues
          an Order for insurance that includes standard conditions and, if warranted, nonstandard con-
          ditions.
          The FDIC uses conditions to impose restrictions and establish operating parameters and con-
          trols on ILCs, including business plan limitations. The FDIC may also impose certain types
          of nonstandard conditions on ILCs, known as prudential conditions, which are related to
          separating and insulating an ILC from its parent company.
          We conducted a review during the reporting period to evaluate the FDIC’s process for
          (1) reviewing, investigating, and approving ILC applications for deposit insurance and
          (2) monitoring business operations to ensure adherence to conditions imposed on ILCs.
          We placed particular emphasis on the FDIC’s monitoring of conditions associated with
          ILC business plans.
          We made six recommendations to strengthen the ILC deposit insurance application process
          and subsequent monitoring of ILC conditions and business operations. The recommenda-
          tions address our observations associated with:
               ■   documenting pre-filing meetings;
               ■   imposing conditions associated with deposit insurance applications;
               ■   obtaining the applicant’s agreement in writing to nonstandard conditions, and con-
                   firming the applicant’s compliance with conditions;
               ■   clarifying corporate guidance for investigating the possible impact of an applicant’s
                   proposed line of business on existing financial institutions and the Deposit Insurance
                   Fund; and
               ■   addressing the status of conditions in visitation reports and reports of examination.
          The FDIC concurred with each of our recommendations and agreed to take action to address
          four of the recommendations by December 31, 2006 and the two remaining recommenda-
          tions by June 30, 2007.

          Planned Work
          Planned work in this goal area in fiscal year 2007 will include an audit of the FDIC’s Dedi-
          cated Examiner Program, a program that the FDIC uses in the six largest banks, in coopera-
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 18




            18                                    SEMIANNUAL REPORT TO THE CONGRESS


                      tion with other primary federal regulators and bank personnel to obtain real-time access to
                      information about risks and trends in those institutions. We also plan to review the FDIC’s
                      overall approach to identifying and managing risks to the Deposit Insurance Fund.
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 19




               S T R AT E G I C G O A L 3
               Consumer Protection
               Assist the FDIC to Protect Consumer
               Rights and Ensure Community
               Reinvestment




              The U.S. Congress has long advocated particular protections for consumers in relation-
              ships with banks. Federal fair lending and consumer protection laws, such as the Fair
              Housing Act, the Equal Credit Opportunity Act, Gramm-Leach-Bliley Act, the Fair
              and Accurate Credit Transaction Act of 2003, the Truth in Lending Act as amended by
              the Home Ownership and Equity Protection Act, and the Real Estate Settlement Pro-
              cedures Act provide substantive protection to borrowers. These laws provide disclosure
              requirements, define high-cost loans, and contain anti-discrimination provisions.
              To help monitor the home lending market, the Federal Reserve and other bank regula-
              tors, such as the FDIC, collect and monitor loan pricing data in accordance with the
              Home Mortgage Disclosure Act. Obtaining the data enables bank regulators, including
              the FDIC to conduct efficient fair lending reviews and to make sure banks are provid-
              ing equal access and pricing for loans regardless of a borrower’s racial or ethnic back-
              ground or gender. The Congress has also enacted the Community Reinvestment Act
              (CRA) of 1977 to encourage federally insured banks and thrifts to help meet the credit
              needs of their entire community, including low- and moderate-income neighborhoods,
              consistent with safe and sound operations. The CRA requires federal bank regulators
              to assess each insured institution’s record of meeting these needs. Amendments to CRA
              regulations became effective in September 2005.
              The FDIC oversees statutory and regulatory requirements aimed at protecting con-
              sumers from unfair and unscrupulous banking practices. Data security and financial
              privacy are important values to consumers. Financial institutions are obligated under
              various laws and regulations to protect consumer privacy and sensitive consumer infor-
              mation. The FDIC carries out its role by (1) providing consumers with access to infor-
              mation about their rights and disclosures that are required by federal laws and
              regulations and (2) examining the banks where the FDIC is the primary federal regula-
              tor to determine their compliance with laws and regulations governing consumer pro-
              tection, fair lending, and community investment. A principal effort at consumer
              education has been the FDIC’s Money Smart program that aims to provide basic finan-
              cial education skills to current and potential bank customers, often through alliances
              with government, charitable, and community development organizations.


                                                                                                         19
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 20




            20                                    SEMIANNUAL REPORT TO THE CONGRESS


                      The FDIC’s bank examiners conduct examinations in FDIC-supervised banks on a scheduled
                      basis to determine the institutions’ compliance with laws and regulations governing consumer
                      protection, fair lending, and community investment. When problem institutions are identi-
                      fied, primarily through the examination process, the FDIC seeks to bring about corrective
                      actions and possesses broad enforcement powers to correct situations that threaten an institu-
                      tion’s compliance with applicable laws.
                      The OIG’s role under this strategic goal is to review the effectiveness of various FDIC pro-
                      grams aimed at protecting consumers, fair lending, and community investment. Addition-
                      ally, the OIG’s investigative authorities are used to identify, target, disrupt, and dismantle
                      criminal organizations and individual operations engaged in fraud schemes that target finan-
                      cial institutions or that prey on the banking public.
                      To assist the FDIC to protect consumer rights and ensure community reinvestment, the
                      OIG’s 2006 performance goals were as follows:
                            ■   Evaluate the effectiveness of FDIC programs for protecting consumer privacy,
                            ■   Review the FDIC’s fair lending and community reinvestment examination programs,
                                and
                            ■   Strengthen enforcement against misrepresentations of deposit insurance coverage.


                      OIG Work in Support of Goal 3
                      A number of audits completed during the reporting period addressed important consumer
                      protection matters: privacy, predatory lending, examiner use of Home Mortgage Disclosure
                      Act data, and supervisory actions taken for compliance violations in FDIC-supervised institu-
                      tions. Investigative work related to protection of personal information and misrepresentation
                      of deposit insurance complemented audit efforts in this strategic goal area, as described
                      below.

                      FDIC’s Oversight of TSPs
                      An increasing number of financial institutions are outsourcing software development and
                      maintenance, data processing, and other IT services to technology service providers (TSPs).
                      Under the Bank Service Company Act, the FDIC and other federal financial regulators have
                      statutory authority to regulate and examine the services a TSP performs for FDIC-insured
                      financial institutions.
                      According to the Federal Financial Institutions Examination Council (FFIEC), TSP relation-
                      ships should be subject to the same risk management, security, privacy, and other internal
                      controls and policies that would be expected if the financial institution were conducting the
                      activities directly.
                      Given the potential risks associated with use of TSPs, we are conducting a series of audits to
                      assess the FDIC’s examination coverage of TSPs and related efforts to protect sensitive cus-
                      tomer information. During the reporting period, as a first step, we assessed the FDIC’s over-
                      sight process for identifying and monitoring TSPs used by FDIC-supervised institutions and
                      for prioritizing examination coverage of TSPs. We also reviewed the extent to which TSP
                      information was being captured in the FDIC’s Virtual Supervisory Information On the Net
                      system (ViSION).
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 21




                                     SEMIANNUAL REPORT TO THE CONGRESS                                      21


          The FDIC actively supported the FFIEC through examinations of numerous high-priority
          TSPs and has acted to strengthen its IT Risk Management Program and corresponding cover-
          age of TSPs. However, the FDIC’s oversight process for identifying, monitoring, and priori-
          tizing TSPs for examination coverage needed improvement. Further, our evaluation of TSP
          data in ViSION indicated that adequate controls had not been implemented to obtain and
          maintain TSP data. Additionally, we determined that the FDIC could improve its participa-
          tion in the TSP risk-based supervisory process used by the federal banking agencies.
          To address these concerns, we made six recommendations to help the FDIC: (1) better iden-
          tify and monitor TSPs with access to sensitive customer information and (2) improve the
          process the FDIC uses (in conjunction with the other FFIEC agencies) for assessing the risks
          posed by, and prioritizing for examination, those TSPs with access to sensitive customer
          information.
          FDIC management generally agreed with our recommendations. The FDIC will take steps
          to improve its TSP inventory and sharing of TSP information with the other federal banking
          agencies, enhance controls over Bank Service Company Act notifications, increase data relia-
          bility, and work with the FFIEC IT Subcommittee regarding including in the new risk-based
          examination priority ranking program those TSPs processing sensitive customer information.

          DRR’s Protection of Bank Employee and Customer
          Personally Identifiable Information
          The FDIC’s Division of Resolutions and Receiverships (DRR) has primary responsibility for
          resolving failed FDIC-insured depository institutions promptly, efficiently, and responsively
          in order to maintain public confidence in the nation’s financial system. In performing their
          duties, DRR personnel have access to a wide variety of records containing personally identifi-
          able information of a bank’s employees and customers.
          During the reporting period we conducted an audit to determine whether DRR adequately
          protects personally identifiable information collected and maintained as a result of resolution
          and receivership functions. We focused our attention on DRR efforts to protect information
          maintained in hardcopy form.
          We determined that overall, through various policies and procedures, DRR has established
          certain controls over the resolution and receivership process addressing the protection of sen-
          sitive bank employee and customer personally identifiable information. During our review of
          documentation supporting the four most recent institution closings, we found that DRR had
          implemented the controls as designed.
          However, we identified opportunities for DRR to strengthen its controls. In particular, DRR
          had not established a Records Management Program that defined recordkeeping requirements
          for the inventory, maintenance, control, and use of hardcopy documents. As a result, person-
          ally identifiable information could be at increased risk of compromise or unauthorized use.
          We recommended that DRR work with the Division of Administration (DOA), and other
          cognizant FDIC divisions and offices, in developing a DRR Records Management Program
          that would include guidelines for the inventory, maintenance, use, and control of hardcopy
          records containing personally identifiable information from failed institutions. DRR man-
          agement concurred with the recommendation and is forming a working group, which, in
          consultation with DOA and others, will develop records management guidance specific to
          their needs.
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 22




            22                                    SEMIANNUAL REPORT TO THE CONGRESS


                      Challenges and FDIC Efforts Related to Predatory Lending
                      Predatory lending typically involves imposing unfair and abusive loan terms on borrowers,
                      and statistics show that borrowers lose more than $25 billion annually due to predatory prac-
                      tices. Predatory lending can be detrimental to consumers and increases the financial and rep-
                      utation risk for financial institutions. Characteristics potentially associated with predatory
                      lending include, but are not limited to, (1) abusive collection practices, (2) balloon payments
                      with unrealistic repayment terms, (3) equity stripping associated with repeat refinancing and
                      excessive fees, and (4) excessive interest rates that may involve steering a borrower to a higher-
                      cost loan.
                      We conducted an audit to determine the challenges faced and the efforts taken by the FDIC
                      to identify, assess, and address the risks posed to FDIC-supervised financial institutions and
                      consumers from predatory lending practices. We also gained an understanding of the efforts
                      taken by the other federal banking regulators to address predatory lending.
                      The FDIC faces significant challenges associated with identifying, assessing, and addressing
                      the risks posed to FDIC-supervised institutions and consumers by predatory lending. For
                      example, (1) each loan transaction must be viewed in its totality to determine whether it may
                      be predatory; (2) FDIC-supervised institutions can have direct or indirect involvement in
                      predatory lending; and (3) nontraditional mortgages and other loan products are now avail-
                      able that contain terms that may be viewed as appropriate for some borrowers, but predatory
                      for others. Further, the FDIC must ensure that its efforts to combat predatory lending do
                      not limit consumer access to legitimate sources of credit.
                      FDIC guidance issued to examiners, FDIC-supervised financial institutions, and consumers
                      addresses predatory lending. However, the guidance does not formally articulate a supervi-
                      sory approach to address predatory lending and was not issued for the explicit purpose of
                      identifying, assessing, and addressing the risks that such lending practices pose to institutions
                      and consumers. Further, certain characteristics potentially indicative of predatory lending
                      were not covered. The lack of an articulated supervisory approach and gaps in coverage could
                      result in increased risk that predatory lending practices occur, are not detected, and harm
                      institutions and consumers.
                      We recommended that the FDIC describe in policy its overall approach to addressing preda-
                      tory lending and review existing examiner, financial institution, and consumer guidance and
                      determine whether additional guidance is needed to address the risks associated with preda-
                      tory lending. We also noted for the FDIC’s consideration other federal banking regulatory
                      agencies’ actions to identify, assess, and address predatory lending. FDIC management
                      agreed with the recommendations and is taking responsive action.

                      Examiner Use of HMDA Data
                      The Home Mortgage Disclosure Act (HMDA) was enacted in 1975, and the Federal Reserve
                      Board has statutory responsibility to promulgate HMDA regulations. HMDA requires mort-
                      gage lenders to annually disclose data to the public on mortgage loan applications, origina-
                      tions, and purchases of home mortgage, home improvement, and refinancing loans.
                      The FDIC is required to assess HMDA compliance by FDIC-supervised institutions. Start-
                      ing in 2004, institutions were required to include loan interest rate pricing information in
                      HMDA data. The pricing information helps FDIC examiners in scoping fair lending exami-
                      nations and detecting loan pricing disparities that may warrant further investigation.
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 23




                                     SEMIANNUAL REPORT TO THE CONGRESS                                       23


          We conducted an audit to determine whether the FDIC makes appropriate use of available
          HMDA data to identify and assess instances of potential discrimination when examining an
          institution’s compliance with relevant laws and regulations.
          We found that overall, the FDIC makes appropriate use of available HMDA data during
          compliance examinations to identify and assess instances of potential discrimination in
          FDIC-supervised institutions. Specifically, we found that for the 14 institutions we reviewed,
          the FDIC used HMDA data to identify areas for review during examinations.
          In addition, the FDIC has taken a positive step in instituting a project that requires increased
          attention for institutions with higher-priced loans. The FDIC identified a number of such
          institutions and when potential discriminatory practices were identified, the Corporation
          followed up on concerns.
          However, we noted that FDIC guidance could be improved and made recommendations
          in that regard. We recommended that DSC (1) clarify examiner guidance related to report-
          ing HMDA examination findings and handling institutions’ review and resubmission of
          corrected HMDA data, (2) provide additional examiner guidance on how to document
          third-party residential mortgage lending relationships for HMDA reporting purposes, and
          (3) emphasize examiner completion of the required checklist for HMDA reviews to docu-
          ment work performed. The FDIC agreed or generally agreed with the recommendations
          and is taking responsive actions.

          Supervisory Actions Taken for Compliance Violations
          The FDIC’s compliance examination process is key to ascertaining the effectiveness of an
          institution’s program for complying with consumer protection laws and regulations. The
          compliance examination and follow-up supervisory attention to violations and other deficien-
          cies help to ensure that consumers and businesses obtain the benefits and protection afforded
          them by law.
          We performed an audit to determine whether the FDIC’s DSC adequately addresses the vio-
          lations and deficiencies reported in compliance examinations to ensure that FDIC-supervised
          institutions take appropriate corrective action.
          DSC identified and reported 9,534 significant compliance violations during 2005. Of the
          1,945 financial institutions examined in 2005, 1,607 (83 percent) had been cited with compli-
          ance violations deemed significant by the FDIC. Also, 837 (43 percent) of the 1,945 financial
          institutions examined had repeat, significant violations, and 708 (85 percent) of these institu-
          tions were rated “1” or “2.”
          According to DSC officials, of the institutions examined in 2005, 96 percent were rated
          “1” or “2,” indicating a strong or generally strong compliance position, while 4 percent
          were rated “3,” “4” or “5,” indicating various levels of concern. DSC officials stated that
          the FDIC’s supervisory approach is to increase the level of attention as an institution’s com-
          pliance position worsens, and during 2005, DSC downgraded 297 institutions’ compliance
          ratings, issued 72 informal and 36 formal enforcement actions for compliance, and made
          43 compliance referrals to the Department of Justice or other authorities.
          However, we reported that DSC had not adequately ensured that the financial institutions in
          our sample had taken appropriate corrective actions for repeat, significant violations that had
          been cited during examinations. In many cases, consistent with the flexibility allowed by
          DSC guidance for “1” or “2” rated institutions, DSC waited until the next examination to
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 24




            24                                    SEMIANNUAL REPORT TO THE CONGRESS


                      follow up on repeat, significant compliance violations that had been identified in multiple
                      examinations before taking supervisory action.
                      As a result of repeat, significant violations, consumers and businesses of the affected institu-
                      tions may not obtain the benefits and protection afforded them by consumer protection laws
                      and regulations. We also identified certain other matters for DSC’s attention relating to
                      (1) performance goals associated with supervisory actions taken for compliance violations
                      and (2) consideration of an institution’s training program in compliance ratings.
                      The report makes three recommendations for DSC to strengthen its monitoring and follow-
                      up processes by revising guidance on follow-up, considering supervisory action when an insti-
                      tution’s corrective action is not timely or when significant violations recur, and revising its
                      related performance goal. DSC’s management will reevaluate applicable guidance; analyze
                      the prevalence and scope of repeatedly cited, significant violations over the next year; and
                      make enhancements or clarifications as necessary. Management’s planned actions are respon-
                      sive to the recommendations.

                      Ongoing Audit Work in the Consumer Protection Area
                      As of the end of the reporting period, we were conducting an audit of DSC’s IT examination
                      procedures for addressing the security of sensitive customer data when the institutions use
                      TSPs. Another of our ongoing audits is addressing the new interagency CRA guidelines.

                      OIG Investigations Seek to Thwart Identity Theft
                      Despite congressional efforts, regulations promulgated by federal agencies such as the FDIC,
                      and added emphasis by law enforcement, identity theft is becoming more sophisticated and
                      the number of victims is growing.
                      Identity theft includes using the Internet for new crimes such as “phishing” e-mails and
                      “pharming” Web sites that attempt to trick people into divulging their private financial infor-
                      mation by pretending to be legitimate businesses or government entities with a need for the
                      information that is requested. As referenced above, certain OIG audits and evaluations are
                      designed to focus on these issues and determine the effectiveness of the FDIC’s strategies and
                      its implementation of programs and activities to protect consumer privacy. OIG criminal
                      investigations expose those who illegally seek and use stolen identifications and bring them to
                      justice. Examples of such investigative work conducted during the reporting period follow.

                      ELECTRONIC CRIMES UNIT RESPONDS TO PHISHING SCAMS INVOLVING THE FDIC AND OIG
                      The OIG’s Electronic Crimes Unit (ECU) responded to eight new cases of phishing e-mails
                      purporting to be from the FDIC or the FDIC OIG. The phishing emails contained links to
                      Web sites that contained official looking forms that attempted to collect confidential or per-
                      sonal information. In one instance, the link in the e-mail contained a program that would
                      load another program on the victim’s computer, seemingly capable of collecting password
                      information from the victim’s computer.
                      In all eight cases, the ECU has worked with the Division of Information Technology, DSC,
                      and outside security companies to successfully shut down the fraudulent Web sites. The
                      ECU is also continuing to work with the United States Computer Emergency Readiness
                      Team to analyze the suspicious program attempting to collect the victims’ password informa-
                      tion.
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 25




                                     SEMIANNUAL REPORT TO THE CONGRESS                                       25


          The ECU also continues to pursue the sources of phishing e-mails through issuance of sub-
          poenas for customer account information and Internet Protocol address information related
          to the individuals who sent the phishing e-mails and maintain the fraudulent Web sites.

          Misrepresentation of FDIC Insurance
          Unscrupulous individuals may attempt to misuse the FDIC’s name, logo, abbreviation, or
          other indicators to suggest that deposits or other products are fully insured. Such misrepre-
          sentations induce the targets of schemes to trust in the strength of FDIC insurance while
          misleading them as to the true nature of the insurance or investment products being offered.
          Depositors may be particularly attracted to these misrepresented investments in our current
          economy when interest paid on insured deposits is historically low and uninsured investments
          can put an investor’s principal at substantial risk. Further, abuses of this nature may erode
          public confidence in federal deposit insurance. Some of our past semiannual reports to the
          Congress provide information on cases that have been successfully investigated involving
          these types of misrepresentations.

          ECU RESPONDS TO ALLEGATIONS OF BANKS FALSELY ADVERTISING FDIC INSURANCE
          During the reporting period, our ECU received two allegations of online financial institu-
          tions that falsely advertised FDIC insurance. In both cases the ECU contacted the entities
          that owned the Internet Protocol address where the online financial institution Web site was
          located and informed them that it was a violation of U.S. law to falsely represent FDIC insur-
          ance. In both cases, the Web sites were deactivated.

          FOREIGN CURRENCY TRADER SENTENCED TO 5 YEARS’ INCARCERATION
          On April 27, 2006, in the Southern District of Florida, a foreign currency trader was sen-
          tenced to 60 months of incarceration, to be followed by 36 months of supervised release. He
          was also ordered to pay $5,455,476 in restitution to the victims he defrauded. His sentence
          was the result of his guilty plea to one count of wire fraud in February 2006.
          The defendant was previously indicted on 11 counts of wire fraud and 2 counts of forging
          and counterfeiting official seals of the United States, including the logo of the FDIC. The
          indictment to which the defendant pleaded guilty alleged that from April 1999 through June
          2003, he fraudulently obtained $8.1 million from approximately 145 investors. The defen-
          dant, an illegal immigrant, is a citizen of Venezuela and raised all of his money from investors
          in Venezuela. The defendant solicited investors by representing that he had exceptional
          investment expertise and success. He promised approximately 145 investors that they would
          earn a monthly return of 3 percent or 36 percent per annum on their investment. Although
          the defendant did trade some currency through brokers in New York and London, his actions
          rapidly became a Ponzi scheme that began to collapse under its own weight.
          When investors became suspicious and began asking for the return on their capital, the defen-
          dant falsely advised them, directly and through his employees and associates, that he was
          unable to return their investments because the FDIC had allegedly “frozen” his funds pur-
          suant to the USA PATRIOT Act, and as soon as his case was settled, he would return to the
          investors the money they demanded. In support of this story, the defendant downloaded
          from the Financial Crimes Enforcement Network, Department of the Treasury Web site, an
          assessment of civil money penalty order involving Great Eastern Bank of Florida, an FDIC-
          supervised institution in Miami, Florida. The defendant then replaced Great Eastern Bank’s
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 26




            26                                    SEMIANNUAL REPORT TO THE CONGRESS


                      name with his own name, added the FDIC logo and seal to the document, and furnished a
                      copy of the fraudulent document to each of his victims.
                                                         Joint investigation by the FDIC OIG and FBI; prosecuted by the
                                                                U.S. Attorney’s Office for the Southern District of Florida.
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 27




               S T R AT E G I C G O A L 4
               Receivership Management
               Help Ensure that the FDIC is Ready
               to Resolve Failed Banks and
               Effectively Manages Receiverships




              When a bank that offers federal deposit insurance fails, the FDIC fulfills its role as
              insurer by either facilitating the transfer of the institution’s insured deposits to an
              assuming institution or by paying insured depositors directly. The FDIC’s DRR mis-
              sion is to plan and efficiently handle the resolutions of failing FDIC-insured institu-
              tions and to provide prompt, responsive, and efficient administration of failing and
              failed financial institutions in order to maintain confidence and stability in the finan-
              cial system.
              When an institution is closed by its chartering authority–the state for state-chartered
              institutions, OCC for national banks, and the Office of Thrift Supervision for federal
              savings associations–the FDIC is responsible for resolving the failed bank or savings
              association. The FDIC begins the resolution process with an assessment of the assets
              and liabilities of the institution. Using this information, DRR solicits proposals from
              approved bidders to pass the insured deposits to an assuming bank and expedite the
              return of assets to the private sector. Once the FDIC is appointed receiver, it initiates
              the closing process for the failed institution and works to provide the insured deposi-
              tors with access to their accounts in 1 or 2 business days. To accomplish this, the
              FDIC works with the assuming institution so that the insured deposit accounts are
              transferred to the assuming institution as soon as possible.
              If no assuming institution is found during the resolution process, the FDIC disburses
              to customers of the failed institution the insured amount in each account category.
              The FDIC, as receiver, manages the receivership estate and the subsidiaries of failed
              financial institutions with the goal of achieving an expeditious and orderly termination.
              Since the FDIC’s inception over 70 years ago, no depositor has ever experienced a loss
              of insured deposits at an FDIC-insured institution due to a failure. The year 2005 was
              the first in the FDIC’s history where no institution failed and there have been no fail-
              ures in 2006 to date. Notwithstanding the current strength of the banking industry,
              the FDIC could potentially have to handle a failing institution with a significantly
              larger number of insured deposits than it has had to deal with in the past or have to
              handle multiple failures caused by a single catastrophic event.



                                                                                                          27
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 28




            28                                    SEMIANNUAL REPORT TO THE CONGRESS


                      The OIG’s role under this strategic goal is conducting audits and evaluations that assess the
                      effectiveness of the FDIC’s various programs designed to ensure that the FDIC is ready to
                      and does respond promptly, efficiently, and effectively to financial institution closings. Addi-
                      tionally, the OIG investigative authorities are used to pursue instances where fraud is com-
                      mitted to avoid paying the FDIC civil settlements, court-ordered restitution, and other
                      payments as the institution receiver.
                      To help ensure the FDIC is ready to resolve failed banks and effectively manages receiver-
                      ships, the OIG’s 2006 performance goals were as follows:
                            ■   Evaluate the FDIC’s plans and systems for managing bank failures, and
                            ■   Assist the FDIC in recovering financial losses from individuals fraudulently conceal-
                                ing assets.


                      OIG Work in Support of Goal 4
                      Ongoing work by both our Office of Audits and our Office of Investigations during the
                      reporting period addressed the challenges that the Corporation faces in the receivership man-
                      agement area.

                      Office of Investigations Pursues Concealment of Assets Cases
                      The FDIC was owed more than $1.7 billion in criminal restitution as of March 31, 2006.
                      Most often, the individuals do not have the means to pay. However, a few individuals do
                      have the means to pay but hide their assets and/or lie about their ability to pay. The OIG’s
                      Office of Investigations (OI) works closely with DRR and the Legal Division in aggressively
                      pursuing criminal investigations of these individuals. As of September 30, 2006, conceal-
                      ment of assets cases constituted 9 percent of OI’s caseload. We are developing new cases in
                      this area with the U.S. Attorney’s Offices in the Southern District of Miami, Florida, and
                      Boston, Massachusetts.

                      Coordinating with DRR
                      OI coordinates closely with the Corporation’s DRR, with special attention to various types of
                      financial institution fraud and related crimes, including concealment of assets cases. During
                      the reporting period, such coordination continued in both our headquarters and Dallas field
                      sites, where OI staff met with DRR and the Legal Division’s Financial Crimes Unit. All crim-
                      inal cases and referrals involving concealment of asset violations are further coordinated with
                      the various U.S. Attorneys’ Offices.
                      In the case of bank closings where fraud is suspected, OI is prepared to send case agents and
                      computer forensic special agents from the ECU to the institution. Their principal role is to
                      provide computer forensic support to OI’s investigations by obtaining, preserving, and later
                      examining evidence from computers at the bank.

                      Planned Audit and Evaluation Work for Fiscal Year 2007
                      Upcoming work in this area will include evaluating the design and implementation of con-
                      trols used by the FDIC to protect personal information collected and maintained in elec-
                      tronic form as a result of resolution and receivership activity. We will also be monitoring
                      DRR’s planning for a potential large bank failure and will be ready to contribute to that
                      effort, as needed.
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 29




               S T R AT E G I C G O A L 5
               Resources Management
               Promote Sound Governance and
               Effective Stewardship of Financial,
               Human, IT, and Procurement Resources




              The FDIC must effectively manage and utilize a number of critical strategic resources
              in order to carry out its mission successfully, particularly its financial, human, IT, and
              procurement resources. The Corporation does not receive an annual appropriation,
              except for its OIG, but rather is funded by the premiums that banks and thrift institu-
              tions pay for deposit insurance coverage, the sale of assets recovered from failed banks
              and thrifts, and earnings on investments in U.S. Treasury securities.
              The FDIC Board of Directors approves an annual Corporate Operating Budget to fund
              the operations of the Corporation. The FDIC’s separate Investment Budget is com-
              posed of individual project budgets approved by the Board of Directors for major
              investment projects.
              Financial resources are but one aspect of the FDIC’s critical assets. The Corporation’s
              human capital is also vital to its success. Currently, about 4,560 employees in offices
              throughout the U.S. conduct the FDIC mission. The Corporation’s workforce is sup-
              plemented by various contracts which must also be overseen by the Corporation. The
              value of active contracts as of March 2006 totalled $1.52 billion.
              Information technology drives and supports the manner in which the public and pri-
              vate sector conduct their work. At the FDIC, the Corporation seeks to leverage IT to
              support its business goals and to improve the operational efficiency of its business
              processes. Along with the positive benefits that IT offers comes a certain degree of risk.
              A key effort for all agencies must be the establishment of effective information security
              programs. Title II of the E-Government Act of 2002, entitled the Federal Information
              Security Management Act, requires each agency to develop, document, and implement
              an agency-wide information security program to provide adequate security for the
              information and information systems that support the operations and assets of the
              agency.
              The OIG’s role in this strategic goal is to perform audits, evaluations, investigations
              that
                   ■   identify opportunities for more economical, efficient, and effective corporate
                       expenditures of funds;
                   ■   recommend actions for more effective governance and risk management prac-
                       tices;                                                                              29
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 30




            30                                    SEMIANNUAL REPORT TO THE CONGRESS


                            ■   foster corporate human capital strategies that benefit employees; strengthen employ-
                                ees’ knowledge, skills, and abilities; ensure employee and contractor integrity; and
                                inspire employees to perform to their maximum capacity;
                            ■   help the Corporation to leverage the value of technology in accomplishing the corpo-
                                rate mission and promote the security of both IT and human resources; and
                            ■   ensure that procurement practices are fair, efficient, effective, and economical.
                      To promote sound governance and effective stewardship of FDIC strategic resources, the
                      OIG’s 2006 performance goals were as follows:
                            ■   Evaluate the Corporation’s efforts to fund operations efficiently, effectively, and eco-
                                nomically.
                            ■   Assess the Corporation’s human capital strategic initiatives to ensure a high-perform-
                                ing work-force that views the FDIC as an employer of choice and that stands ready to
                                meet challenges in the banking industry.
                            ■   Promote maximization of IT resources for efficiency and effectiveness and ensure IT
                                and physical security to protect all FDIC resources from harm.
                            ■   Evaluate the Corporation’s contracting efforts to ensure goods and services are fairly,
                                efficiently, and economically procured.
                            ■   Monitor corporate efforts to identify and analyze the FDIC risk environment and val-
                                idate that a sound internal control environment is in place and working well.


                      OIG Work in Support of Goal 5
                      Much of our Office of Audits’ work was conducted in pursuit of this strategic goal during
                      the reporting period, as shown in the following discussion. Audits and evaluations addressed
                      important emergency preparedness issues, information security matters, and various aspects
                      of corporate procurement activities.

                      Emergency Response Plans
                      The Federal Emergency Management Agency issued Federal Preparedness Circular 65, which
                      provides guidance for agencies in developing contingency plans that include emergency plan-
                      ning for the safety and security of agency personnel.
                      The FDIC’s Emergency Preparedness Program provides the FDIC’s emergency response pol-
                      icy and requires that emergency response plans (ERPs) be established in Washington Area
                      Headquarters Offices (HQ) and in each of the regional offices. The ERPs document the
                      FDIC’s procedures and structure to ensure the safety and security of all FDIC personnel dur-
                      ing an emergency. During the reporting period, we evaluated the FDIC’s progress in develop-
                      ing and implementing comprehensive ERPs.
                      Our work determined that the FDIC’s emergency response policy provides a framework from
                      which comprehensive ERPs have been established for HQ (including divisional ERPs for spe-
                      cific functional areas of concern) and the two regional offices we reviewed. The ERPs we
                      reviewed address most of the recommended emergency response elements contained in fed-
                      eral agency criteria for emergency response planning. However, we reported that FDIC sen-
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 31




                                     SEMIANNUAL REPORT TO THE CONGRESS                                      31


          ior management, particularly in HQ, could do more to “set the tone” regarding the impor-
          tance of emergency response through more public involvement in, and support for, ERPs.
          Additional guidance was also needed on certain aspects of the FDIC’s emergency response
          policy and the ERPs we reviewed, including:
               ■   updating ERPs on a regular basis so they remain current,
               ■   conducting evacuation and shelter-in-place drills,
               ■   inventorying and maintaining emergency food and water supplies,
               ■   providing information on available first-aid and medical response,
               ■   incorporating the child-care facility ERP into the HQ ERP, and
               ■   developing additional procedures for employees with disabilities.
          We made two recommendations to strengthen the emergency response policy and the mainte-
          nance, communication, and content of the FDIC’s ERPs. DOA concurred with both recom-
          mendations and has planned or initiated actions that are responsive to both
          recommendations.

          FISMA Evaluation
          To achieve its mission, the FDIC relies on automated information systems to collect, process,
          and store vast amounts of banking and other sensitive information. Much of this informa-
          tion is used by financial regulators, academia, and the public to monitor bank performance,
          develop regulatory policy, and conduct research on and analysis of important banking issues.
          Ensuring the integrity, availability, and appropriate confidentiality of this information in an
          environment of increasingly sophisticated security threats and global connectivity requires a
          strong, enterprise-wide information security program.
          In accordance with the Federal Information Security Management Act of 2002 (FISMA), we
          performed an evaluation to determine the effectiveness of the FDIC’s information security
          program and practices, including the FDIC’s compliance with FISMA and related informa-
          tion security policies, procedures, standards, and guidelines.
          We reported that as a result of focused efforts over the last several years, the FDIC has made
          significant progress in improving its information security program and practices. Further,
          additional improvements were underway at the time of our evaluation. Our work did not
          identify any significant deficiencies in the FDIC’s information security program that warrant
          consideration as a potential material weakness as defined by the Office of Management and
          Budget (OMB). However, we reported that continued management attention is needed in
          key security control areas to ensure that appropriate risk-based and cost-effective security
          controls are in place to secure the FDIC’s information resources. These areas included enter-
          prise architecture, configuration management, access controls, and audit and accountability
          controls, among others. Therefore, we concluded that the FDIC had established and imple-
          mented internal controls that provided limited assurance of adequate security for its informa-
          tion resources. Our report includes a number of steps that the Corporation can take to
          strengthen its information security program and practices. In many cases, the FDIC was
          already working to address these steps.
          With assistance from KPMG LLP, (KPMG) we also responded to a set of questions issued
          by OMB related to specific security issues. Our work determined that the FDIC had imple-
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 32




            32                                    SEMIANNUAL REPORT TO THE CONGRESS


                      mented actions that substantially addressed the criteria used by OMB for assessing the status
                      of those aspects of agency security programs. Still, continued management attention was
                      need in some security control areas, as discussed in more detail in our FISMA evaluation
                      report itself.

                      Privacy Work Requested by OMB
                      In its July 2006 memorandum entitled Fiscal Year 2006 Reporting Instructions for FISMA
                      and Agency Privacy Management, the OMB requested that agency IGs provide any meaning-
                      ful information related to their agency’s privacy program and related activities.
                      We contracted with KPMG to audit the status of the FDIC’s privacy program as part of our
                      FISMA-related coverage. We reported that the FDIC has strengthened controls related to
                      information in an identifiable form (IIF), implemented training to promote Privacy Act
                      awareness, and identified systems with IIF and performed privacy impact assessments for
                      most of them. We did, however, note that the FDIC could strengthen privacy management
                      by completing some of its ongoing efforts. KPMG will be performing a more in-depth
                      review, as required by Section 522 of the Consolidated Appropriations Act of 2005, of the
                      FDIC’s use of IIF and related privacy protection policies and procedures. A final report will
                      be issued in December 2006.
                      In an earlier OMB memorandum in June 2006, entitled, Protection of Sensitive Agency
                      Information, OMB called for use of a National Institute of Standards and Technology check-
                      list to assess protection of remotely accessible IIF and recommended additional controls when
                      IIF is removed or accessed from outside the agency.
                      We contracted with KPMG to audit and report on the status of the FDIC’s implementation
                      of the information protection controls related to remote access, transport, and storage of sen-
                      sitive agency information. The audit found that the Corporation had taken a number of
                      steps to protect IIF and other sensitive information, and additional control improvements
                      were underway. However, the FDIC needed to do more to implement the National Institute
                      of Standards and Technology checklist and fully address OMB’s recommendations for safe-
                      guarding sensitive information.

                      Application Controls
                      The FDIC relies heavily on application systems to collect, process, and store sensitive data
                      such as financial institution examination ratings, pending enforcement actions, and person-
                      ally identifiable information. It is imperative, therefore, that the FDIC implement controls
                      to ensure that user access privileges are commensurate with job responsibilities and that user
                      activities are recorded and periodically reviewed.
                      During the reporting period we conducted an audit to determine whether the Corporation’s
                      controls provide reasonable assurance of adequate security. We reported that the Corporation
                      had established and implemented a number of controls in this regard. However, we made
                      several recommendations to further protect applications that process sensitive information.

                      Controls Over the Disposal of Sensitive FDIC Information
                      As emphasized above, much of the Corporation’s sensitive information must be protected in
                      accordance with federal statutes and regulations. It is also critical that the Corporation
                      implement appropriate controls when disposing of sensitive information to prevent an unau-
                      thorized disclosure that could lead to potential legal liability or public embarrassment.
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 33




                                     SEMIANNUAL REPORT TO THE CONGRESS                                      33


          To determine whether the FDIC has adequate controls for ensuring the secure disposal of
          sensitive information, we conducted an audit that focused on the disposal of information in
          shredder bins and consoles provided by a contractor for the FDIC’s headquarters offices.
          Although the FDIC had established a number of key controls, the Corporation needed to
          improve its oversight of the contract to ensure that the controls were effectively implemented.
          We also identified matters relating to subcontractor costs and agreements, and the identifica-
          tion of the records management contractors that warranted management attention. We made
          recommendations to address these matters, and the Corporation’s planned actions were
          responsive.

          Contract Administration
          The FDIC is increasingly relying on contractors to accomplish its mission. Contract admin-
          istration begins after contract award and ends when goods or services have been accepted and
          the contractor has received final payment.
          Effective contract administration (1) helps to ensure that the contractor delivers the required
          goods or services according to the contract delivery schedule and (2) includes monitoring
          cost, schedule, and technical performance and ensuring that payments are authorized and
          supported. Both the contracting and program offices at the FDIC are key players in contract
          administration.
          We conducted an evaluation to assess the strengths and weaknesses of the FDIC’s contract
          administration policies, procedures, and practices for ensuring that contract cost, schedule,
          and performance requirements are met.
          During our evaluation, DOA’s Acquisition Services Branch (ASB) had a number of initiatives
          in progress. Specifically, ASB had streamlined contract administration by (1) moving toward
          larger consolidated contracts, including participation in interagency contracting efforts;
          (2) centralizing contracting efforts that were formerly administered in FDIC regional offices;
          and (3) increasing procurement card purchasing limits to include smaller recurring contracts.
          ASB also defined new competency and skill requirements, pursued targeted recruitments to
          address skills gaps, and reduced overall staff by approximately 50 percent since the beginning
          of 2005.
          As ASB continues to transform its acquisition function, we concluded that ASB and senior
          FDIC management needs to devote additional attention to the following areas:
               ■   Acquisition Workforce Planning
               ■   Acquisition Procedures
               ■   Administration of Contracts
               ■   Contract Management System
               ■   Contract Close Out
          We made 13 recommendations for improvement. Addressing these issues should help to
          ensure an efficient, effective, and accountable contract administration process and better
          position the FDIC to control costs, meet scheduled timeframes, and ensure contractor per-
          formance. DOA concurred with all recommendations and has planned or initiated actions
          that are responsive to each recommendation.
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 34




            34                                    SEMIANNUAL REPORT TO THE CONGRESS


                      Ongoing Audit Work
                      Ongoing work at the end of the reporting period in support of this strategic goal included
                      audits related to the following: classification of salary costs in the New Financial Environ-
                      ment, FDIC performance measures, FDIC’s succession planning efforts, and contracting
                      activities and controls associated with both the Federal Systems Integration Management
                      contract with the General Services Administration and the Corporation’s consolidated IT
                      Application Services contract.

                      Investigations of Employee and Contractor Actions
                      The OIG conducts investigations, as needed, of criminal or serious misconduct on the part of
                      FDIC employees and contractors to ensure a working environment of high integrity. During
                      the reporting period there were no such cases completed.
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 35




               S T R AT E G I C G O A L 6
               OIG Internal Processes
               Continuously Enhance the OIG’s
               Business and Management Processes




              The FDIC OIG is one of 57 such offices in the federal government. Along with the
              Government Accountability Office and other law enforcement organizations, the
              Inspectors General are part of a network of government organizations with common
              purposes for fostering greater accountability, integrity, and excellence in government
              programs and operations.
              While our organization is focused on the FDIC’s programs and operations, the OIG
              has an inherent obligation to hold itself and its people to the highest standards of per-
              formance and conduct. Like any organization, we have processes and procedures for
              conducting our work; communicating with our clients, staff, and stakeholders; manag-
              ing our financial resources; aligning our human capital to our mission; strategically
              planning and measuring the outcomes of our work; maximizing the cost-effective use
              of technology; and ensuring our work products are timely, value-added, accurate, com-
              plete, and meet applicable professional standards.
              To continuously enhance the OIG’s business and management processes, the OIG’s
              2006 performance goals were as follows:
                   ■   Enhance strategic and annual planning and performance measurement;
                   ■   Strengthen human capital management to achieve enhanced results;
                   ■   Ensure the quality and efficiency of OIG audits, evaluations, and investiga-
                       tions;
                   ■   Foster good relationships with clients, stakeholders, and OIG staff; and
                   ■   Invest in cost-effective and secure IT that improves performance and produc-
                       tivity.
              The following actions during the reporting period supported our efforts to continu-
              ously enhance our business and management processes.




                                                                                                          35
0064-FDIC_FDIC text .qxd   12/6/06    5:07 PM   Page 36




            36                                     SEMIANNUAL REPORT TO THE CONGRESS


                      Strategic and Annual Planning and Performance Measurement
                      Activities
                           ●   Worked to formulate the OIG’s 2007 Business Plan, including conducting outreach
                               sessions to FDIC Division directors and senior management to provide input and feed-
                               back. The business planning approach seeks to integrate and align performance plan-
                               ning, audit and evaluation planning, performance reporting, and budgeting processes.
                           ●   Formulated the fiscal year 2008 appropriated budget request to provide the FDIC
                               Chairman for concurrence.
                           ●   Continued to monitor and assess the OIG’s risks and the internal controls in place to
                               manage the risks as part of our responsibilities under the Corporation’s Internal Control
                               and Risk Management Program. Each OIG Accountability Unit Manager is submitting
                               internal control test results for 2006 to support assertions regarding the extent of com-
                               pliance with the 2006 FDIC Internal Control Program and whether unit objectives
                               have been achieved. These certifications will support an assurance statement addressing
                               OIG-wide Internal Control Program compliance for 2006. Managers are updating their
                               management control plans and accountability units for 2007.


                      Human Capital Initiatives
                           ●   Continued to focus on Office of Audits’ training program, including ensuring course
                               completions for needed continuing professional education credits and developing and
                               delivering a course for all Office of Audits staff related to audit assignment planning and
                               message design.
                           ●   Continued OIG mentoring program that pairs newer staff with more experienced OIG
                               staff to help guide new staff and promote professional development.


                      Quality of Audits, Evaluations, Investigations
                           ●   Counsel’s Office provided advice and counsel and determinations of legal applicability
                               on issues arising with respect to audits, evaluations, and investigations, including the
                               legal accuracy and sufficiency of audit and evaluation reports.
                           ●   Began peer review of Department of Justice Office of Audit, in accordance with the
                               President’s Council on Integrity and Efficiency (PCIE) Peer Review Guide. Final report
                               is expected in February 2007.
                           ●   Conducted internal quality assurance reviews of the OIG’s Western Region Chicago and
                               Dallas Offices of Investigation.
                           ●   Conducted quality control reviews of Office of Audits directorates.


                      Fostering Good Relationships with Stakeholders
                           ●   Participated in quarterly meetings with FDIC senior management officials to keep them
                               apprised of ongoing audit and evaluation reviews and results.
                           ●   Continued to work closely with FDIC developing presentations that include in-depth
                               discussions of “lessons learned/red flags” based on our experience in investigating major
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 37




                                      SEMIANNUAL REPORT TO THE CONGRESS                                                  37


                 fraud at financial institutions. The presentations provide an overview of the investigative
                 process, alert examiners to possible red flags or signs of fraud and/or obstruction, and
                 provide guidance on making referrals and coordinating with the OIG regarding sus-
                 pected fraud. Office of Investigations provides these types of presentations at training
                 conferences, Federal Financial
                 Institutions Examination Coun-
                 cil seminars, DSC Field Office                  A Strong Partnership
                 and Case Managers’ meetings,
                 and bankers’ outreach sessions.        The OIG has partnered with various U.S. Attorneys’ Offices
                                                         throughout the country in bringing to justice individuals
             ●   Continued efforts to keep DSC,          who have defrauded the FDIC or financial institutions
                 DRR, Legal, and other FDIC              within the jurisdiction of the FDIC, or criminally impeded
                 program offices informed of the         the FDIC’s examination and resolution processes. The
                 status and results of our inves-        alliances with the U.S. Attorneys’ Offices have yielded
                 tigative work impacting their           positive results during this reporting period.
                 respective offices. We continued
                                                         Our strong partnership has evolved from years of trust and
                 to issue quarterly reports to
                                                         hard work in pursuing offenders through parallel criminal
                 DSC, DRR, Legal and the
                                                         and civil remedies resulting in major successes, with
                 Chairman’s Office outlining
                                                         harsh sanctions for the offenders. Our collective efforts
                 activity and results in our cases
                                                         have served as a deterrent to others contemplating crimi-
                 involving closed and open banks,
                                                         nal activity and helped maintain the public’s confidence in
                 and asset concealment and resti-
                                                         the nation’s financial system.
                 tution cases. We continued to
                 meet quarterly with DSC, DRR,           For the current reporting period, we are especially appre-
                 and the Financial Crimes Unit to        ciative of the efforts of the Assistant U.S. Attorneys in the
                 review ongoing cases of interest,       following offices: Southern District of Florida, Western Dis-
                 and we coordinated routinely            trict of Wisconsin, District of Missouri, Eastern District of
                 with these offices. As appropri-        Tennessee, Northern District of Illinois, Central District of
                 ate, we briefed affected program        Illinois, Northern District of Texas, Southern District of
                 officials regarding employee            Texas, Northern District of Iowa, District of Minnesota,
                 cases.                                  District of Massachusetts, and the Western District of
                                                         Oklahoma.
             ●   Reviewed and provided timely
                 comments to corporate stake-
                 holders on six corporate directives and circulars. Of note, we provided substantive com-
                 ments on proposed policy regarding protection of privacy information about
                 individuals, the FDIC’s software configuration management policy, the FDIC personnel
                 suitability program, and the FDIC enterprise risk management program.
             ●   Attended monthly meetings of the FDIC Audit Committee and presented the results of
                 significant audit and evaluation assignments for consideration by Committee Members.
             ●   Communicated with the Chairman and Vice Chairman through the Inspector General’s
                 regularly scheduled meetings with them and in other forums.
             ●   Participated with other OIGs in the PCIE and Executive Council on Integrity and Effi-
                 ciency through attendance at regular meetings and participation in ongoing activities in
                 the Inspector General (IG) community, such as sharing investigative best practices,
                 working on the community’s new FISMA reporting framework, and responding to vari-
                 ous surveys.
             ●   Met with representatives of the OIGs of the federal banking regulators (Federal Reserve
                 Board, Department of the Treasury, and National Credit Union Administration) to dis-
                 cuss audit and investigative matters of mutual interest.
0064-FDIC_FDIC text .qxd   12/6/06    5:07 PM   Page 38




            38                                     SEMIANNUAL REPORT TO THE CONGRESS


                           ●   Attended regular Assistant IG for Investigation meetings. OI representatives also regu-
                               larly attended meetings of the National Bank Fraud Working Group and similar work-
                               ing groups held throughout the country. OI participates in the Cyber Fraud and the
                               Check Fraud working groups, subgroups of the Bank Fraud Working Group, attended
                               by law enforcement, Department of Justice officials, and regulators.
                           ●   Held congressional briefings with Senate Banking Committee and House Financial Ser-
                               vices staff on matters of mutual interest and kept them apprised of OIG progress in
                               reporting on such issues as predatory lending and industrial loan companies.
                           ●   Briefed new IG on background of the OIG’s Employee Advisory Group, a forum for
                               employees to address concerns and provide ideas to the IG for improving business
                               processes, employee relations, and working conditions. Scheduled early October meet-
                               ing with the IG to continue the Employee Advisory Group forum.


                      Investing in Cost-Effective, Secure IT to Enhance Performance and
                      Productivity
                           ●   Continued work with the OIG component offices to post and/or update information
                               on the FDIC OIG Internet and Intranet sites in the interest of facilitating internal work
                               efforts and providing easily accessible information to parties external to our office who
                               are interested in our office and the results of our work.
                           ●   Ensured that all OIG staff completed required Security Awareness and Privacy Act train-
                               ing.
                           ●   Made the OIG Dashboard
                               accessible to all OIG staff.
                               The dashboard contains
                               information supporting the
                               OIG’s strategic and perform-
                               ance goals—both qualitative
                               and quantitative—so that all
                               staff can see the OIG’s over-
                               all progress in meeting those
                               goals and the value of their
                               individual contributions to
                               the OIG mission.
                           ●   Took a number of measures
                               in coordination with the
                               Division of Information
                               Technology to ensure the
                               security and uninterrupted
                               availability of OIG IT
                               resources and data, including
                               disseminating security-
                               related tips and information
                               to OIG staff on a regular
                               basis.
0064-FDIC_FDIC text .qxd    12/6/06     5:07 PM     Page 39




                                         SEMIANNUAL REPORT TO THE CONGRESS                                           39



                             Cumulative
                 Cumulative Results (2-year period)Results             (2-year period)

                                              Nonmonetary Recommendations

                                                   October 2004 – March 2005            37
                                                   April 2005 – September 2005          39
                                                   October 2005 – March 2006            34
                                                   April 2006 – September 2006          48


                 Products Issued and Investigations Closed

                 40                                                                              37


                 30
                                         23
                                                                           20                                 21
                 20           17                                                        18
                                                              15
                                                   11
                 10

                  0
                           10/04–3/05 4/05–9/05 10/05–3/06 4/06–9/06     10/04–3/05 4/05–9/05 10/05–3/06 4/06–9/06
                                   Audits and Evaluations                              Investigations


                 Questioned Costs/Funds Put to Better Use (in millions)

                 60
                 50
                 40
                 30
                 20
                                11.9
                 10                                                              4.9
                                                          0.98                                            0
                  0
                            10/04–3/05                  4/05–9/05         10/05–3/06                  4/06–9/06


                 Fines, Restitution, and Monetary Recoveries Resulting from OIG Investigations (in millions)

                 40

                 30                                                                                     27.2
                                24.1

                 20
                                                                               12.8
                 10                                        5.4

                  0
                            10/04–3/05                  4/05–9/05         10/05–3/06                  4/06–9/06
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 40
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 41




               Fiscal Year 2006
               Performance Report




              This performance report presents an overview of our performance compared to our fiscal
              year 2006 annual performance goals in our Business Plan. It provides a statistical summary
              of our qualitative goals as well as a narrative summary of performance results by Strategic
              Goal. It also shows our results in meeting a set of quantitative goals that we established for
              the year. Our complete 2006 Business Plan is available at www.fdicig.gov.
              We formulated six strategic goals, as shown in the table on the following page. Each of our
              strategic goals, which are long-term efforts, has annual performance goals and key efforts
              that represent our initiatives in fiscal year 2006 toward accomplishing the strategic goal.
              The table reflects the number of performance goals that were Met, Substantially Met, or
              Not Met. This determination was made through discussion at the OIG Executive level and
              a qualitative assessment as to the impact and value of the audit, evaluation, investigation,
              and other work of the OIG supporting these goals throughout the year.
              As shown in the table, we met or substantially met all of our performance goals in fiscal year
              2006. A discussion of our success in each of the 6 goals follows the table.




                                                                                                               41
0064-FDIC_FDIC text .qxd    12/6/06     5:07 PM   Page 42




            42                                        SEMIANNUAL REPORT TO THE CONGRESS


                           Fiscal Year 2006 Annual Performance Goal Accomplishment
                           (Number of Goals)
                           Strategic Goals                           Met   Substantially   Not Met       Total
                                                                               Met

                           Supervision: Assist the
                           FDIC to Ensure the Nation’s
                           Banks Operate Safely and Soundly           1         1                          2

                           Insurance: Help the FDIC
                           Maintain the Viability
                           of the Insurance Funds                     2                                    2

                           Consumer Protection:
                           Assist the FDIC to Protect
                           Consumer Rights and Ensure
                           Community Reinvestment                     3                                    3

                           Receivership Management:
                           Help Ensure that the FDIC is Ready
                           to Resolve Failed Banks and Effectively
                           Manages Receiverships                      1         1                          2

                           Resources Management:
                           Promote Sound Governance
                           and Effective Stewardship of
                           Financial, Human, IT, and
                           Procurement Resources                      3         2                          5

                           OIG Internal Processes:
                           Continuously Enhance
                           the OIG’s Business and
                           Management Processes                       4         1                          5

                           Total                                     14         5                         19

                           Percentage                                74         26                        100




                      Supervision: Assist the FDIC to Ensure the Nation’s Banks
                      Operate Safely and Soundly
                      Our success in achieving this goal is largely due to our investigative activity. Some of our
                      most significant cases involving financial institution fraud achieved impressive results. For-
                      mer Community Bank of Blountsville executives and an excavating contractor received stiff
                      sentences for conspiracy, bank fraud, and causing false entries in bank records. The former
                      President of Hawkeye State Bank was sentenced to 65 months’ incarceration and ordered to
                      pay $3.6 million in restitution for theft, embezzlement, misapplication by a bank officer, and
                      engaging in monetary transactions in property derived from unlawful activity. The former
                      director and the former president of the Bank of Alamo, along with four bank customers,
                      were indicted on charges of conspiracy, money laundering, and bank fraud. The former
                      chairman of the board and chief executive officer of Hamilton Bank was sentenced to
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 43




                                     SEMIANNUAL REPORT TO THE CONGRESS                                           43


          30 years of incarceration and 36 months of supervised release. He had earlier been convicted
          on all 16 charges of making false filings to the Securities and Exchange Commission and to
          bank examiners, making false statements, wire fraud, bank fraud, securities fraud, obstruction
          of a bank examination, and conspiracy. The former Hamilton Bank president and the former
          chief financial officer also received stiff sentences for their roles in the fraud. In another case,
          the former president of the First National Bank of Blanchardville, Wisconsin, was sentenced
          to 108 months’ incarceration to be followed by 5 years of supervised release and was ordered
          to pay $13.4 million in restitution to the FDIC. Investigations also uncovered real-estate
          fraud schemes involving property flips and other types of mortgage fraud that impacted
          FDIC-supervised institutions. In another case, a securities broker was also sentenced to
          60 months’ probation and 6 months’ home confinement after pleading guilty to obstructing
          an examination of a financial institution.


          Insurance: Help the FDIC maintain the viability of
          the insurance funds
          Several audit and evaluation assignments during the fiscal year focused on helping to main-
          tain the viability of the insurance funds. We issued a report on the FDIC’s risk-related
          premium system leading to the Division of Insurance and Research’s (DIR) considering
          improvements to the assessment system to reflect changes in an institution’s capital level
          and examination composite ratings more frequently than semiannually. DIR will present
          improvements to the FDIC Board in conjunction with changes resulting from deposit insur-
          ance reform legislation. DIR committed to recommending assessment rates that better reflect
          differences among FDIC-insured institutions and that would be most likely to keep the
          insurance fund’s reserve ratio within the range contemplated by legislation. We issued a
          report on the FDIC’s reserve ratio and assessments determination process, recommending
          that the Corporation periodically validate key assumptions, estimates, or other components
          that factor into the calculation of the reserve ratio. Importantly, in connection with corpo-
          rate governance practices, in that same report, we recommended improved communication of
          information relevant to assessment determinations and other corporate matters and activities
          to the FDIC Board of Directors. In response, the FDIC undertook an extensive review of
          delegations of authority. In another evaluation report on the industrial loan company insur-
          ance application process, we made six recommendations to strengthen that process and subse-
          quent monitoring of conditions imposed on industrial loan companies and business
          processes.


          Consumer Protection: Assist the FDIC to protect consumer rights
          and ensure community reinvestment
          Audits and investigations contributed to the FDIC’s protection of consumers in multiple
          ways. As a result of our audit of the challenges and FDIC efforts related to predatory lend-
          ing, we recommended that the FDIC describe in policy its overall approach to addressing
          predatory lending and review existing examiner, financial institution, and consumer guidance
          to see if more guidance is needed to address risks associated with such lending. We also
          issued a report on the implementation of the Gramm-Leach-Bliley Act and Fair and Accurate
          Credit Transaction (FACT) Act with recommendations to enhance assurance that institutions
          are taking steps to prevent identity theft to the extent intended by the FACT Act and to
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 44




            44                                    SEMIANNUAL REPORT TO THE CONGRESS


                      encourage the FDIC to coordinate with the joint agency rulemaking committee to expedite
                      issuance of final rules and regulations for all of the Act’s provisions. Two other reports
                      included recommendations to ensure better protection of sensitive customer information.
                      One of these reports related to the risks of financial institutions’ increased outsourcing of
                      software development and maintenance, data processing, and other information technology
                      services to technology service providers and the FDIC’s related examination coverage. The
                      other audit examined the FDIC Division of Resolutions and Receiverships’ protection of
                      bank employee and customer personally identifiable information. To further protect con-
                      sumers, our Electronic Crimes Unit responded to multiple phishing schemes where the FDIC
                      and OIG Web sites were misused to entice consumers to divulge personal information. We
                      successfully shut down several Web sites used for such purposes. We also continued efforts
                      to curtail misrepresentation of FDIC insurance. As a result of one of our investigations, a
                      foreign currency trader pleaded guilty to multiple counts of wire fraud and two counts of for-
                      gery and counterfeiting official seals of the United States, including the FDIC logo. He was
                      sentenced to 5 years’ incarceration and ordered to pay over $5 million in restitution to his
                      victims. From a compliance standpoint, we assessed examiner use of Home Mortgage Disclo-
                      sure Act data to identify and assess instances of potential discrimination in FDIC-supervised
                      institutions and recommended strengthening examiner guidance. We also identified needed
                      improvements in the FDIC’s process for addressing the violations and deficiencies reported in
                      compliance examinations.


                      Receivership Management: Help ensure that the FDIC is ready to
                      resolve failed banks and effectively manages receiverships
                      We reported that with respect to the Corporation’s Board-approved $31.8 million asset serv-
                      icing technology enhancement project (ASTEP), the project management team developed
                      planning documents and implemented activities that complied with project management
                      guidance in line with the status of the project. We recommended that as the project advanced
                      and was rebaselined, strengthening project management controls would facilitate decision-
                      making and help ensure ASTEP met user needs effectively and efficiently. Other audit work
                      determined that the Corporation established and implemented an effective system for track-
                      ing and recovering unclaimed deposits. We pursued concealment of assets investigations
                      related to the more than $1.7 billion in criminal restitution that the FDIC is owed. In one
                      such successful case, the former chief executive officer of Sunbelt Savings Bank was convicted
                      on all 27 counts of an indictment charging him with mail fraud, false statements, conceal-
                      ment of assets, and money laundering. He was also subject to more than $2 million in cash
                      forfeitures.




                      Resources Management: Promote sound governance and effective
                      stewardship of financial, human, IT, and procurement resources
                      We issued a number of audit reports resulting in positive benefits to the FDIC, for example,
                      strengthening the Corporation’s privacy program for protecting personal employee informa-
                      tion; establishing a more effective discrimination complaint resolution process; helping
                      ensure an efficient, effective, and accountable FDIC contract administration process;
                      strengthening the Corporation’s emergency response program; enhancing controls over the
                      disposal of sensitive FDIC information; enhancing wireless security policies and procedures
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 45




                                     SEMIANNUAL REPORT TO THE CONGRESS                                       45


          and restricting access to critical software programs designed to safeguard wireless communica-
          tions; and strengthening the FDIC’s certification and accreditation program to better secure
          corporate operations and assets. Our Federal Information Security Management Act-related
          work for 2006 reported that the FDIC had made significant progress over the last several
          years but continued attention was needed in such areas as enterprise architecture, configura-
          tion management, access controls, and audit and accountability controls. We also continued
          efforts to ensure employee integrity and heighten awareness of unacceptable or unethical
          behavior as evidenced by our success in investigating a former FDIC intern’s conspiracy to
          commit bank fraud and identity theft of FDIC employees. The former intern was sentenced
          to 60 months’ imprisonment and ordered to make restitution of over $630,000.


          OIG Internal Processes: Continuously enhance the OIG’s business
          and management processes
          We strengthened our focus on strategically planning OIG work, resulting in issuance of our
          fiscal year 2006 Audit Plan and 2006 Business Plan, which combined our strategic plan and
          performance plan. These plans were designed to unify, guide, and integrate OIG activities in
          pursuit of our six strategic goals. We promoted effective stakeholder relationships and infor-
          mation-sharing by way of OIG Executive meetings with FDIC Executives; presentations at
          FDIC Audit Committee meetings; Congressional interaction; and coordination with finan-
          cial regulatory OIGs, other members of the Inspector General community, and the Govern-
          ment Accountability Office. We reviewed and/or commented on 14 proposed corporate
          policies (e.g., Employee Rights and Responsibilities under the Privacy Act of 1974, Encryp-
          tion and Digital Signatures for Electronic Mail, Protection of Privacy Information, the
          FDIC’s Software Configuration Management Program, and Enterprise Risk Management)
          and four draft legislative documents and regulations. We focused on continuously enhancing
          the OIG’s business and management processes by strengthening the OIG’s human capital
          practices, taking steps to better ensure the quality of OIG activities and products, and invest-
          ing in cost-effective and secure information technology to improve performance and produc-
          tivity.
0064-FDIC_FDIC text .qxd    12/6/06    5:07 PM      Page 46




            46                                           SEMIANNUAL REPORT TO THE CONGRESS



                           Achievement of Fiscal Year 2006 Quantitative Performance
                           Measures

                      Performance Measure                                                       Status               FY 2006              FY 2006
                                                                                                                      Actual               Target
                                                    ■
                      Financial Benefit Return                                                    Met                 196%                  100%
                                       ●
                      Other Benefits                                                              Met                   127                   70
                                                                     ▼
                      Past Recommendations Implemented                                   Substantially Met             93%                  95%
                      Audit/Evaluation Reports Issued                                    Substantially Met              26                    30
                      Average Elapsed Calendar Days to Issue
                      Final Audit/Evaluation Report                                            Not Met                  239                  180
                                                ◆
                      Investigative Actions                                                       Met                   169                  120
                      Closed Investigations Resulting in Reports to
                      Management, Convictions, Civil Actions, or
                      Administrative Actions                                                      Met                  84%                  80%
                      Investigations Accepted for Prosecution Resulting
                      in Convictions, Pleas, and/or Settlements                          Substantially Met             67%                  70%
                      Investigation Reports Issued Within
                      30 Days After Completing Case                                      Substantially Met             98%                  100%



                       ■ Includes all financial benefits, including audit-related questioned costs; recommendations for better use of funds; and
                         investigative fines, restitution, settlements, and other monetary recoveries divided by OIG’s total fiscal year budget obliga-
                         tions.
                       ● Benefits to the FDIC that cannot be estimated in dollar terms that result in improved services; statutes, regulations, or
                         policies; or business operations and occurring as a result of work that the OIG has completed over the past several years.
                         Includes outcomes from implementation of OIG audit/evaluation recommendations.
                       ▼ Fiscal year 2004 recommendations implemented by fiscal year-end 2006.

                       ◆ Indictments, convictions, informations, arrests, pre-trial diversions, criminal non-monetary sentencings, monetary
                          actions, employee actions, and other administrative actions.
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 47




               Reporting Requirements




              Index of Reporting Requirements -
              Inspector General Act of 1978, as amended
              REPORTING REQUIREMENTS                                                         PAGE


              Section 4(a)(2): Review of legislation and regulations                           49


              Section 5(a)(1): Significant problems, abuses, and deficiencies                5-34


              Section 5(a)(2): Recommendations with respect to significant
                               problems, abuses, and deficiencies                            5-34


              Section 5(a)(3): Recommendations described in previous semiannual
                               reports on which corrective action has not been completed       49


              Section 5(a)(4): Matters referred to prosecutive authorities                      4


              Section 5(a)(5) and 6(b)(2): Summary of instances where
                                           requested information was refused                   56


              Section 5(a)(6): Listing of audit reports                                        53


              Section 5(a)(7): Summary of particularly significant reports                   5-34


              Section 5(a)(8): Statistical table showing the total number of audit reports
                               and the total dollar value of questioned costs                  55


                                                                                                    47
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 48




            48                                    SEMIANNUAL REPORT TO THE CONGRESS


                      Section 5(a)(9): Statistical table showing the total number of audit reports and the
                                       total dollar value of recommendations that funds be put to better use   55


                      Section 5(a)(10): Audit recommendations more than 6 months old for
                                        which no management decision has been made                             56


                      Section 5(a)(11): Significant revised management decisions during the
                                         current reporting period                                              56


                      Section 5(a)(12): Significant management decisions with which
                                        the OIG disagreed                                                      56
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 49




               Information Required by
               the Inspector General
               Act of 1978, as amended




              Review of Legislation and Regulations
              The FDIC OIG is tasked under the Inspector General Act of 1978 with reviewing
              existing and proposed legislation and regulations relating to programs and operations
              of the Corporation and making recommendations in semiannual reports concerning
              the impact of such legislation or regulations on the economy and efficiency in the
              administration of programs and operations administered or financed by the Corpora-
              tion or the prevention and detection of fraud and abuse in its programs and operations.
              The Office of Counsel reviewed and provided comments on draft final deposit insur-
              ance regulations establishing higher deposit insurance limits on retirement accounts.
              The Office of Counsel also reviewed the Office of Management and Budget’s final reg-
              ulations under the NO FEAR Act to determine the implications of reimbursing the
              Judgment Fund for discrimination or whistleblower judgments, awards, or settlements,
              but provided no comments. Further, Counsel’s Office began tracking legislative devel-
              opments relating to the Privacy Act and security concerns regarding the presence of
              personally identifiable information on government computers.

              Table I: Significant Recommendations From Previous Semiannual
              Reports on Which Corrective Actions Have Not Been Completed
              This table shows the corrective actions management has agreed to implement but has
              not completed, along with associated monetary amounts. In some cases, these correc-
              tive actions are different from the initial recommendations made in the audit reports.
              However, the OIG has agreed that the planned actions meet the intent of the initial
              recommendations. The information in this table is based on (1) information supplied
              by FDIC’s Office of Enterprise Risk Management (OERM) and (2) the OIG’s determi-
              nation of closed recommendations for reports issued after March 31, 2002. These 21
              recommendations from 12 reports involve improvements in operations and programs.
              OERM has categorized the status of these recommendations as follows:

              Management Action in Process:
              (21 recommendations from 12 reports)
              Management is in the process of implementing the corrective action plan, which may
              include modifications to policies, procedures, systems or controls; issues involving      49
              monetary collection; and settlement negotiations in process.
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 50




            50                                      SEMIANNUAL REPORT TO THE CONGRESS


                      Significant Recommendations From Previous Semiannual Reports
                      on Which Corrective Actions Have Not Been Completed

                       Report Number,                 Significant             Brief Summary of Planned
                       Title & Date                   Recommendation Number   Corrective Actions

                                         M ANAGE M E NT           ACT ION       IN    P R O C ESS

                                                      ■
                       03-030                         4                       Allow only approved FDIC workstations to
                       Remote Access Systems                                  authenticate to the network.
                       Review
                       June 5, 2003


                       04-019                         1                       Integrate the key project management
                       Enhancements to the FDIC                               activities identified in the Project Manage-
                       System Development Life                                ment Institute’s A Guide to the Project
                       Cycle Methodology                                      Management Body of Knowledge
                       April 30, 2004                                         (PMBOK) with the development process.



                                                      3                       Align systems development with the FDIC’s
                                                                              Enterprise Architecture, establish how
                                                                              funding will be reviewed and provided in
                                                                              an iterative development environment, and
                                                                              update cost-benefit analysis during the life
                                                                              cycle of the system.


                       04-039                                                 Document specific capital investment-
                                                      8
                       FDIC’s Capital Investment                              related information, including information
                       Management Review                                      about steady state investments.
                       Process for Information
                       Technology Investments
                       September 23, 2004


                       05-016                         1                       Ensure that division and office directors
                       Security Controls Over the                             provide FDIC employees and contractors
                       FDIC’s Electronic Mail                                 with sufficiently detailed guidance to facil-
                       (E-Mail) Infrastructure                                itate informed decisions on when to
                       March 31, 2005                                         encrypt sensitive e-mail communications.

                                                      ●
                                                      2                       Evaluate alternative solutions to augment
                                                                              the current implementation of
                                                                              Entrust/Express for securing sensitive
                                                                              e-mail communications.


                                                      3                       Evaluate the feasibility of implementing an
                                                                              e-mail policy compliance tool to achieve
                                                                              greater assurance that sensitive communi-
                                                                              cations are encrypted when appropriate.
0064-FDIC_FDIC text .qxd    12/6/06      5:07 PM    Page 51




                                         SEMIANNUAL REPORT TO THE CONGRESS                                            51


           Report Number,                   Significant                 Brief Summary of Planned
           Title & Date                     Recommendation Number       Corrective Actions

                             MANAGE M E NT                    ACT ION     IN    P R OCE S S

                                             ■
                                            5                           Develop a security plan for the e-mail
                                                                        infrastructure that defines the FDIC’s
                                                                        security requirements and existing and
                                                                        planned controls for ensuring those
                                                                        requirements are satisfied.

                                                                        Establish a policy that takes an enterprise
           05-031                           1                           approach to defining the roles, responsi-
           FDIC’s Information Technol-                                  bilities, and overall principles and man-
           ogy Configuration Manage-                                    agement expectations for performing
           ment Controls Over                                           configuration management on operating
           Operating System Software                                    system software.
           September 8, 2005

                                            2                           Develop configuration management
                                                                        plan(s) covering the four operating system
                                                                        software platforms addressed in this
                                                                        report consistent with federal standards
                                                                        and guidelines and industry-accepted
                                                                        practices.
                                                ■
           05-037                           2                           Develop and implement a software config-
           Controls Over the Risk-                                      uration management plan for the Risk-
           Related Premium System                                       Related Premium System that incorporates
           September 23, 2005                                           the appropriate features of StarTeam.

           06-004                                                       Fully document costs and benefits in
           Project Management Frame-        1●
                                                                        updating the ASTEP solution through cur-
           work for the Asset Servicing                                 rent re-baselining efforts, including
           Technology Enhancement                                       addressing key activities associated with
           Project (ASTEP)                                              specified costs.
           December 16, 2005
                                             ▼
           06-005                           1                           Develop and issue an overarching privacy
           FDIC Safeguards Over Per-                                    policy for safeguarding personal employee
           sonal Employee Information                                   information.
           January 6, 2006

           06-008                           1                           Pursue revisions to Part 327 and related
           Consideration of Safety and                                  implementing procedures to permit Capital
           Soundness Examination                                        Group adjustments during the Risk-Related
           Results and Other Relevant                                   Premium System (RRPS) process.
           Information in the FDIC’s
           Risk-Related Premium
           System
           February 17, 2006

                                            2                           Update the analysis supporting the basis
                                                                        point rate spreads applied to the assess-
                                                                        ment rate matrix for deposit insurance
                                                                        funds.

                                            3▼
                                                                        Present the updated analysis as part of the
                                                                        assessment rate cases to the Board with
                                                                        recommendations for assessment rates for
                                                                        financial institutions based on their
                                                                        assessment risk classification.
0064-FDIC_FDIC text .qxd     12/6/06    5:07 PM    Page 52




            52                                         SEMIANNUAL REPORT TO THE CONGRESS



                       Report Number,                      Significant                    Brief Summary of Planned
                       Title & Date                        Recommendation Number          Corrective Actions

                                             M ANAGE M E NT                ACT ION           IN    P R O C ESS

                                                            ▼
                                                           4                              Establish a schedule for periodically
                                                                                          updating the assessment rate analysis and
                                                                                          reassessing the basis point spreads and
                                                                                          assessment rates, as needed.


                       06-009                              1▼
                                                                                          Finalize interim examination guidance that
                       FDIC’s Guidance to Institu-                                        addresses FACT Act provisions for which
                       tions and Examiners for                                            final rules and regulations have been
                       Implementing the Gramm-                                            issued or that are self-executing.
                       Leach-Bliley Act Title V and
                       Fair and Accurate Credit
                       Transactions (FACT) Act
                       February 24, 2006

                                                           2▼                             Develop a more aggressive project man-
                                                                                          agement plan that will expedite the
                                                                                          issuance of final rules and regulations for
                                                                                          all FACT Act provisions.


                       06-010                              3●                             Prior to the next contract option period,
                       Consolidated Facilities                                            perform an assessment to determine if the
                       Management Approach                                                Consolidated Facilities Management con-
                       March 30, 2006                                                     tract is achieving intended benefits,
                                                                                          including small business participation.



                       06-012                              3                              Establish and implement a procedure for
                       Security Controls Over the                                         periodically reviewing and testing critical
                       FDIC’s Wireless Data                                               security software programs on the FDIC’s
                       March 31, 2006                                                     wireless-enabled laptop computers to
                                                                                          ensure that user permissions are appropri-
                                                                                          ately restricted.



                      ■    The OIG has not received information necessary to evaluate management’s actions in response to the rec-
                           ommendation.
                      ●    The OIG has received some information but has requested additional information to evaluate management’s
                           actions in response to the recommendation.
                      ▼    Implementation scheduled for December 2006.
0064-FDIC_FDIC text .qxd    12/6/06       5:07 PM   Page 53




                                           SEMIANNUAL REPORT TO THE CONGRESS                                            53


                      Table II: Audit Reports Issued by Subject Area

                                          AUDIT REPORT                                      QUESTIONED COSTS
                                                                                                                   FUNDS
                                                                                                                   PUT TO
                           Number and                    Title                          Total        Unsupported   BETTER
                           Date
                                                                                                                   USE
                       I N S U R A N C E

                           06-013                        FDIC Reserve Ratio and
                           April 17, 2006                Assessment Determinations


                           EVAL-06-014                   FDIC’s Industrial Loan Com-
                           July 20, 2006                 pany Deposit Insurance
                                                         Application Process

                       C O N S U M E R         P R O T E C T I O N

                           06-010                        Challenges and FDIC Efforts
                           June 7, 2006                  Related to Predatory
                                                         Lending


                           06-015                        FDIC’s Oversight of Technol-
                           July 20, 2006                 ogy Service Providers


                           06-023                        Examiner Use of Home
                           September 28, 2006            Mortgage Disclosure Act
                                                         Data to Identify Potential
                                                         Discrimination

                           06-024                        Division of Supervision and
                           September 29, 2006            Consumer Protection’s
                                                         Supervisory Actions Taken
                                                         for Compliance Violations


                           06-017                        DRR’s Protection of Bank
                           September 15, 2006            Employee and Customer
                                                         Personally Identifiable
                                                         Information


                       R E S O U R C E S        M A N A G E M E N T


                           06-016                        Controls Over the Disposal
                           August 10, 2006               of Sensitive FDIC Informa-
                                                         tion by Iron Mountain, Inc.
                                                                                        $3,389,962
                           06-018                        Response to Privacy Pro-
                           September 22, 2006            gram Information Request in
                                                         OMB’s Fiscal Year 2006                      $3,016,407
                                                         Reporting Instructions for
                                                         FISMA and Agency Privacy
                                                         Management
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM    Page 54




            54                                     SEMIANNUAL REPORT TO THE CONGRESS


                      Table II: Audit Reports Issued by Subject Area
                                     AUDIT REPORT                                           QUESTIONED COSTS
                                                                                                                   FUNDS
                                                                                                                   PUT TO
                           Number and                 Title                            Total         Unsupported
                           Date                                                                                    BETTER
                                                                                                                   USE
                       R E S O U R C E S    M A N A G E M E N T     ( C O N T I N U E D )

                           06-019                    Responses to Security-Related
                           September 22, 2006        Questions in OMB’s Fiscal Year
                                                     2006 Reporting Instructions for
                                                     FISMA and Agency Privacy
                                                     Management



                           06-020                    FDIC’s Efforts to Comply with
                           September 25, 2006        OMB Memorandum M-06-16,
                                                     Protection of Sensitive Agency
                                                     Information



                           06-022                    Independent Evaluation of the
                           September 27, 2006        FDIC’s Information Security
                                                     Program - 2006


                           06-025                    Controls for Monitoring Access
                           September 29, 2006        to Sensitive Information
                                                     Processed by FDIC Applica-
                                                     tions



                           EVAL-06-021               FDIC’s Emergency Response
                           September 22, 2006        Plans


                           EVAL-06-026               FDIC’s Contract Administration
                           September 29, 2006




                           TOTALS FOR THE PERIOD                                       $0            $0            $0
0064-FDIC_FDIC text .qxd      12/6/06     5:07 PM      Page 55




                                           SEMIANNUAL REPORT TO THE CONGRESS                                                               55


           Table III: Audit Reports Issued with Questioned Costs
                                                                                                    Questioned Costs
                                                                       Number
                                                                                              Total              Unsupported


             A. For which no management decision has
                been made by the commencement of the
                reporting period.                                          3             $3,888,723                    $3,036,407

             B. Which were issued during the reporting
                period.                                                    0             $0                            $0


             Subtotals of A & B                                            3             $3,888,723                    $3,036,407

             C. For which a management decision was
                made during the reporting period.                          3             $3,888,723                    $3,036,407
                     (i) dollar value of disallowed costs.                 1             $45,830                       0
                     (ii) dollar value of costs not
                                                                            ●
                          disallowed.                                      3             $3,842,893                    $3,036,407

             D. For which no management decision has
                been made by the end of the reporting
                period.                                                    0             $0                            $0

                Reports for which no management decision
                was made within 6 months of issuance.                      0             $0                            $0

           ● One report included on the line for costs not disallowed is also included in the line for costs disallowed, because manage-
           ment did not agree with some of the questioned costs.

           Table IV: Audit Reports Issued with Recommendations for
                     Better Use of Funds
                                                                                                         Number             Dollar Value


             A. For which no management decision has been made by the commence-
                ment of the reporting period.                                                              0                 $0

             B. Which were issued during the reporting period.                                             0                 $0

             Subtotals of A & B                                                                            0                 $0

             C. For which a management decision was made during the reporting period.                      0                 $0
                       (i) dollar value of recommendations that were agreed to by
                           management.                                                                     0                 $0
                                  - based on proposed management action.                                   0                 $0
                                  - based on proposed legislative action.                                  0                 $0
                       (ii) dollar value of recommendations that were not agreed to by
                            management.                                                                    0                 $0

             D. For which no management decision has been made by the end of the
                reporting period.                                                                          0                 $0

             E. Reports for which no management decision was made within
                6 months of issuance.                                                                      0                 $0
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 56




            56                                    SEMIANNUAL REPORT TO THE CONGRESS


                      Table V: Status of OIG Recommendations
                               Without Management Decisions
                      During this reporting period, there were no recommendations more than 6 months old with-
                      out management decisions.


                      Table VI: Significant Revised Management Decisions
                      During this reporting period, there were no significant revised management decisions.


                      Table VII: Significant Management Decisions with Which
                                 the OIG Disagreed
                      During this reporting period, there were no significant management decisions with which the
                      OIG disagreed.


                      Table VIII: Instances Where Information Was Refused
                      During this reporting period, there were no instances where information was refused.
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 57




               Abbreviations and
               Acronyms




                   ANB                   American National Bank
                   ASB                   Acquisition Services Branch
                   COO                   chief operations officer
                   CRA                   Community Reinvestment Act
                   DOA                   Division of Administration
                   DRR                   Division of Resolutions and Receiverships
                   DSC                   Division of Supervision and Consumer Protection
                   ECU                   Electronic Crimes Unit
                   ERP                   emergency response plans
                   FBI                   Federal Bureau of Investigation
                   FDIC                  Federal Deposit Insurance Corporation
                   FFIEC                 Federal Financial Institutions Examination Council
                   FISMA                 Federal Information Security Management Act of 2002
                   FNBB                  First National Bank of Blanchardville
                   FSA                   Farm Service Agency
                   HMDA                  Home Mortgage Disclosure Act
                   HQ                    Washington Area Headquarters Offices
                   IG                    Inspector General
                   IIF                   information in an identifiable form


                                                                                               57
0064-FDIC_FDIC text .qxd    12/6/06   5:07 PM   Page 58




            58                                     SEMIANNUAL REPORT TO THE CONGRESS


                           ILC                  industrial loan company
                           IT                   Information Technology
                           OCC                  Office of the Comptroller of the Currency
                           OERM                 Office of Enterprise Risk Management
                           OI                   Office of Investigations
                           OIG                  Office of Inspector General
                           OMB                  Office of Management and Budget
                           PCIE                 President’s Council on Integrity and Efficiency
                           TSP                  technology service provider
                           ViSION               Virtual Supervisory Information On the Net system
0064-FDIC_FDIC text .qxd       12/6/06       5:07 PM       Page 59




               OIG Staff Honored
               at Awards Ceremony




              Each year, the Inspector General community presents awards for excellence to honor
              those individuals whose distinguished work helps to promote economy, efficiency, and
              effectiveness in their agency’s programs and prevent and detect fraud, waste, and abuse.
              The 2006 Awards Ceremony of the President’s Council on Integrity and Efficiency and
              the Executive Council on Integrity and Efficiency was held at Andrew W. Mellon Audi-
              torium on October 24, 2006, and three teams led by staff of the FDIC OIG received
              Awards for Excellence. The OIG is proud of the following recipients of these awards:

                                                                                          The evaluation team of Marshall
                                                                                          Gentry, Ann Lewis, Loretta Weibel,
                                                                                          Tom Ritz, Erin Shea, and Chris
                                                                                          Gieseler for their outstanding work
                                                                                          on the evaluation of FDIC safe-
                                                                                          guards over personal employee
                                                                                          information.




               Left to right: Rus Rau, Chris Gieseler, Tom Ritz, Loretta Weibel, Ann
               Lewis, Marshall Gentry, Erin Shea, Steve Beard, Jon Rymer


              The investigative team of Michael
              Rexrode and Charlie Price (Special
              Agent, FBI) for their outstanding
              efforts in investigating a conspiracy
              to commit bank fraud and identity
              theft.




                                                                           Left to right: Fred Gibson, Mike Rexrode, Jon Rymer
                                                                           (not pictured, Charlie Price)                         59
0064-FDIC_FDIC text .qxd   12/6/06      5:07 PM       Page 60




            60                                            SEMIANNUAL REPORT TO THE CONGRESS


                                                                                               The investigative team of Ken Meyd, David
                                                                                               Beck (Senior Attorney, FDIC), and Joseph
                                                                                               Revesz (Assistant U.S. Attorney) for their
                                                                                               outstanding work in investigating and pros-
                                                                                               ecuting illegal concealment of assets.




                      Left to right: Fred Gibson, David Beck, Ken Meyd, Jon Rymer (not
                      pictured, Joseph Revesz)




                      Charles Chisolm, a Special Agent from the
                      OIG’s Dallas office, received an award for
                      excellence for his work on a joint investiga-
                      tion with the Department of Agriculture
                      OIG of an individual involved in violating
                      the Packers & Stockyards Act.




                                                                                         Left to right: Fred Gibson, Charles Chisolm, Jon Rymer
0064-FDIC_FDIC text .qxd   12/6/06   5:07 PM   Page 61




               CONGRATULATIONS




              Retirees
              The OIG appreciates the many years of public service of three members of our staff
              who retired during the reporting period.
              Paul Johnston, Senior Audit Specialist, retired after nearly 32 years of federal service.
              His career began in the Army Corps of Engineers and later included work as an
              accountant and auditor at the U.S. Department of Agriculture and U.S. Information
              Agency Offices of Inspector General. He joined the FDIC OIG in 1991.
              Mike Walker, Senior IT Specialist, retired after more than 35 years of federal service.
              His career began as an Army Lieutenant followed by his promotion to Captain. In
              1974 he became an auditor at the Naval Supply Center, Norfolk, Virginia, and later
              moved on to the General Accounting Office (now the Government Accountability
              Office). He worked at the Community Services Administration, Department of Trans-
              portation, and Department of Housing and Urban Development Offices of Inspector
              General prior to joining the FDIC OIG in 2003.
              Joan Green, Investigative Assistant in the OIG’s Atlanta office, retired after more than
              33 years of federal service. Her career began with the U.S. Army in Ft. Jackson, South
              Carolina, and included service with the Department of Defense, Defense Criminal
              Investigative Service, and finally with the Offices of Inspector General of the Resolu-
              tion Trust Corporation and the Federal Deposit Insurance Corporation. We appreciate
              Joan’s dedicated assistance to OIG investigators over the past 15 years.




                                                                                                          61
0064-FDIC_FDIC text .qxd     12/6/06       5:07 PM      Page 62




            62                                               SEMIANNUAL REPORT TO THE CONGRESS


                                                                                                     Hamilton Bank Investigative
                                                                                                     Team
                                                                                                     The OIG acknowledged the outstanding
                                                                                                     efforts of a team of individuals from the
                                                                                                     U.S. Attorney’s Office of the Southern
                                                                                                     District of Florida for their efforts in the
                                                                                                     successful prosecution of the former chair-
                                                                                                     man of the board and chief executive
                                                                                                     officer of Hamilton Bank.

                           Pictured here are members of the U.S. Attorney’s team with IG Jon
                           Rymer and others from FDIC OIG management.




                       OIG Investigators
                                                                                                    OIG Special Agent Alan Butler received
                                                                                                    an award from FBI Special Agent in
                                                                                                    Charge, Memphis Division, My Harrison,
                                                                                                    for his outstanding assistance in the suc-
                                                                                                    cessful case of the Bank of Alamo Failure.
                                                                                                    Also recognized were members of the OIG’s
                                                                                                    Electronic Crimes Unit, Jay Chappell,
                                                                                                    Special Agent in Charge, and Lance Endy,
                                                                                                    Special Agent.


                           Left to right: Alan Butler, Jay Chappell, My Harrison, Lance Endy



                       OIG Special Agent Jason Moran received
                       an award for Special Achievement in Iden-
                       tity Theft and Financial Investigations at
                       the Southeastern IG Counsel awards cere-
                       mony. Special Agent Moran was cited for
                       his work on a case involving Colony Bank
                       of Fitzgerald and the indictments and
                       arrests of six defendants.



                                                                                               Left to right: Tom McDade, Jason Moran, Phil Robertson, Eastern
                                                                                               Region OI.
00064-FDIC-cover final.qxd   12/6/06   5:11 PM   Page 4
00064-FDIC-cover final.qxd   12/6/06   5:11 PM   Page 1




                                       The Office of Inspector General (OIG) Hotline is a convenient mechanism
                                       employees, contractors, and others can use to report instances of suspected fraud,
                                       waste, abuse, and mismanagement within the FDIC and its contractor operations.
                                       The OIG maintains a toll-free, nationwide Hotline (1-800-964-FDIC), electronic
                                       mail address (IGhotline@FDIC.gov), and postal mailing address. The Hotline is
                                       designed to make it easy for employees and contractors to join with the OIG in its
                                       efforts to prevent fraud, waste, abuse, and mismanagement that could threaten the
                                       success of FDIC programs or operations.




                                       To learn more about the FDIC OIG and for complete copies of audit
                                       and evaluation reports discussed in this Semiannual Report, visit our
                                       homepage: http://www.fdicig.gov




                                       Federal Deposit Insurance Corporation
                                       Office of Inspector General
                                       3501 Fairfax Drive
                                       Arlington, VA. 22226
